<html>
<title> - OVERSIGHT HEARING ON ``OPPORTUNITIES FOR OUTDOOR RECREATION ON PUBLIC LANDS.''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]








         OPPORTUNITIES FOR OUTDOOR RECREATION ON PUBLIC LANDS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, June 22, 2011

                               __________

                           Serial No. 112-44

                               __________

       Printed for the use of the Committee on Natural Resources




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
 67-110 PDF               WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Bill Johnson, OH
Doc Hastings, WA, ex officio

                                 ------                                
















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, June 22, 2011.........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
    Garamendi, Hon. John, a Representative in Congress from the 
      State of California........................................     2

Statement of Witnesses:
    Akenson, Jim, Executive Director, Backcountry Hunters and 
      Anglers....................................................    17
        Prepared statement of....................................    19
    Amador, Donald, Blue Ribbon Coalition........................    29
        Prepared statement of....................................    30
    Bacon, Sutton, Chief Executive Officer, Nantahala Outdoor 
      Center, Inc................................................    37
        Prepared statement of....................................    39
    Crimmins, Thomas, Lead Spokesman, Professionals for Managed 
      Recreation.................................................    34
        Prepared statement of....................................    35
    Ehnes, Russ, Executive Director, National Off-Highway Vehicle 
      Conservation Council.......................................     4
        Prepared statement of....................................     5
    Jones, Scott, Board of Directors, Colorado Off-Highway 
      Vehicle Coalition..........................................     6
        Prepared statement of....................................     8
    Lepley, Dick, Executive Director, Pennsylvania Off-Highway 
      Vehicle Association........................................    10
        Prepared statement of....................................    12
    Umphress, Karen, Board Member, Minnesota Motorized Trails 
      Coalition and the Coalition of Recreational Trail Users....    13
        Prepared statement of....................................    14

Additional materials supplied:
    List of documents retained in the Committee's official files.    46


 
OVERSIGHT HEARING ON ``OPPORTUNITIES FOR  OUTDOOR RECREATION ON PUBLIC LANDS.''
                              ----------                              


                        Wednesday, June 22, 2011

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:07 a.m. in 
Room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, McClintock, Labrador, and 
Garamendi.
    Mr. Bishop. The Subcommittee will come to order. I note the 
presence of a quorum, low bar, but we have it.
    The Subcommittee on National Parks, Forests, and Public 
Lands is meeting today to hear testimony on the Opportunities 
for Outdoor Recreation on Public Lands. And so under the 
Committee Rules, opening statements are limited to the Chairman 
and the Ranking Member. However, I do ask unanimous consent to 
include any other Members' opening statements in the record, if 
submitted to the Clerk by the close of business today. Hearing 
no objections, so ordered.
    Here I have to ask a question. I would also ask unanimous 
consent that if other Members join us at some particular time 
during the course of this hearing, that we give them permission 
to join us on the dais and to participate in the hearing. 
Without objections, we will do that as well.

STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Bishop. Let me start with my opening statement, then I 
will turn to Mr. Garamendi, who is sitting in for Congressman 
Grijalva this morning.
    I am actually happy to have this group here. The pattern of 
outdoor recreation in America is always going to be changing, 
and it is sometimes hard to predict.
    The concept of recreation is one of the last items added to 
our concept for the purposes for which we have public lands. 
And because of that, sometimes it is the loser, vis-a-vis the 
other types of longer traditional uses of public lands.
    From the end of the Second World War through the 1970s, 
America experienced an explosion in the interest and in the 
traditional and family forms of outdoor recreation. So as this 
country grew in wealth, number of vacations, mobility, 
especially by car, the post-War generation made uses of our 
parks and other public lands for family camping and sightseeing 
activities.
    Recreational use of the public lands since the 1970s has 
also taken divergent paths that reflect the change in America, 
so that the demand for outdoor recreation remains very high, 
but overall the tidal wave of the baby boomer generation has 
slowed that rate, or sometimes changed the direction in which 
it grows.
    If you use more informative measuring sticks than simply 
number of visits, there is a complexity and diversity in the 
changes and the demands for outdoor recreation. Now, having 
said that, I am going to do something very simplistic, and 
simply look at the number of people who are attending our 
current national parks. And it shows, I think, that we have 
shorter recreational trips taking place. Statistically, the 
demand close to urban population centers is increasing, while 
the demand for those faraway sites is lessening. Obviously it 
is clear that people are taking more day trips close to home, 
that supplant those long trips with a park as a final 
destination.
    Obviously some parks, like Yosemite and Grand Canyon, will 
always be a destination spot, and they will continue to draw 
visitors from far and near. But we see changes in the pattern 
of what people want and how they wish to use their public 
lands.
    Although the United States has a vast expanse of publicly 
available forests and lakes and rivers and trails and beaches 
and mountains and prairies and everything else, the 
distribution of these settings does not correspond well with 
the distribution of the population. So this maldistribution in 
recreational opportunities is made worse by the compulsion of 
some people who apparently want to impose from afar aesthetic 
preferences on their fellow recreationists, even if they are a 
continent away.
    The history of public land in the United States has been a 
history of legislators from the East making rules and 
regulations on a West that they never did quite understand, and 
failing, historically, in the process.
    While some of the conflicts over limited resources is 
unavoidable, whether that is the fly fisherman versus the 
kayaker on the water, I also believe that with public lands 
comprising one out of every three acres in the United States 
and half of the West, there is plenty of room for all of us. 
And I realize that while some people will always oppose 
hunting, or commercial ski resorts, or especially off-road 
vehicles on our public lands, others will view those as 
wholesome family activities. And there is room for everyone. 
Multiple purpose should be our goal, and it is a feasible, 
possible goal.
    Today we are going to hear testimony from an assessment of 
recreational opportunities on Federal lands from former land 
managers, participants in those activities, and others. I look 
forward to hearing their testimony. And I wish to recognize the 
gentleman from California for five minutes for any statement he 
wishes to make.

STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Garamendi. I thank you very much, Mr. Chairman. In your 
opening statement you said five words, six words which are 
really, really important in today's hearing: plenty of room for 
all of us.
    Indeed, there is a lot of land out there, and there really 
is plenty of room for all of us. The question is, where will 
all of us be at one time, and exactly what will we be doing on 
that?
    I think all of our history, all of us are somehow 
influenced by our past history. I remember as a teenager, my 
father, who was operating our family ranch, really in the 
springtime was about to kill one of my cousins, who had taken 
his motorcycle and was running it up and down the hill, 
scarring and raising a lot of dirt and mud. When he came down 
from the mountain, my dad grabbed him by the collar, threw him 
off the motorcycle, and I think was about to throw the 
motorcycle on top of him, saying you get your GD machine out of 
here and don't ever come back.
    I have been at this for a long, long time. I think many of 
you in the room were aware when I was at the Department of the 
Interior, this issue was there. And it has been in California. 
One of my very first bills in California was to establish an 
off-the-road vehicle park, which is still operating.
    The real question is what will be done on a specific piece 
of land or a specific area. Very contentious. But over the 
years, I have discovered that if people are willing to sit down 
on all sides, look at all the facts, look at all of the 
opportunities, both the opportunities to preserve and protect 
and the opportunities to enjoy the recreation of many, many 
different kinds, there are solutions.
    It is when we fail to sit down, and we just kind of get 
back into our corner and come out fighting, that things don't 
work out too well.
    Clearly, some places are not good for certain types of 
recreation; other places, ideal. Some roads yes, other places 
no. Off-the-road vehicles, snowmobiles and the like, all of 
these things can be worked out, and we ought to get about it.
    I am really interested in hearing today's testimony. I will 
not allow my father's experience, where I was standing next to 
his anger, to somehow taint your testimony.
    Mr. Chairman, I yield back the remainder of my time.
    Mr. Bishop. Thank you, I appreciate that. I may have to 
qualify your remarks. I said there is room for all of us. 
Obviously at my size, if I am part of the process, there may 
not be room. Maybe a hundred pounds ago there was room for all 
of us.
    I would like to invite our first panel up, if we could, to 
begin this hearing. Mr. Russ Ehnes, I hope I have pronounced 
that properly, who is the Executive Director of the National 
Off-Highway Vehicle Conservation Council; Mr. Scott Jones, 
Colorado Off-Highway Vehicle Coalition; Mr. Dick Lepley, 
Executive Director of the Pennsylvania Off-Highway Vehicle 
Association; Ms. Karen Umphress, and I hope I have pronounced 
that properly, Board Member of the Coalition of Recreational 
Trail Users, the Minnesota Motorized Trail Coalition. And I 
don't know if Mr. Jim Akenson was--you made it from Chicago, 
good for you--Executive Director of the Backcountry Hunters and 
Anglers.
    If I could, for all our witnesses, your written testimony 
is going to appear full in the hearing, so we want to keep your 
oral testimony if possible to five minutes, so we can end this 
on time.
    The microphones are not automatic, so please press the 
button when you want to begin. When you start, the Clerk there 
will start the timer, so in front of you the green light goes 
on. When you have one minute left, the red light will come on--
I mean the yellow light comes on. Consider it red. And then 
when the red light comes on, we really do need to move on, so I 
would have to ask you if you would stop at that point.
    With that, we appreciate you coming from afar to join us 
here. And this is going to be I think a fascinating hearing and 
interesting topic. So let us just start in the front, left to 
right. Mr. Ehnes, if you would like to begin, please do so, 
sir.

   STATEMENT OF RUSS EHNES, EXECUTIVE DIRECTOR, NATIONAL OFF-
              HIGHWAY VEHICLE CONSERVATION COUNCIL

    Mr. Ehnes. Mr. Chairman, Members of the Committee, my name 
is Russ Ehnes, and I am the Executive Director of the National 
Off-Highway Vehicle Conservation Council, or NOHVCC. I am a 
fourth-generation Montanan, and a third-generation motorcycle 
trail rider. My grandfather and my father began riding 
backcountry trails in 1959 near Lincoln, Montana. My mom began 
riding trails in 1960, the year after my brother was born.
    Their favorite trips were to Hart Lake and Bighorn Lake 
near the Continental Divide. The trip to Bighorn Lake was 
always a great fishing trip. The creation of the Scapegoat 
Wilderness, however, put an end to those trips in 1972. But 
there were still other places to ride near Lincoln.
    My brother and I began riding in the early 1970s with Mom 
and Dad, and one of our favorite rides was from Rogers Pass 
along the Continental Divide to Flesher Pass. That trail was 
closed in the early eighties, after the grizzly bear was listed 
as threatened on the Endangered Species List.
    In the mid-eighties, travel planning resulted in the 
closure of several other key trails in the area, and what 
remains open now is an incomplete system of trails that don't 
connect. The only way to connect opportunities is with roads 
that aren't legal for off-highway vehicles. You can forget 
about a family trail ride in the Lincoln area, because you 
can't do it right now.
    Being from Great Falls, though, we did most of our riding 
in the Lewis and Clark National Forest, in the Little Belt 
Mountains, and also in the Badger-Two Medicine area near 
Browning in the Highwood Mountains.
    In 1986 several of us in Great Falls formed an organization 
called the Great Falls Trail Bike Riders. Since then we have 
built the organization to over 900 members, and have developed 
trail maintenance agreements on most of the trails in the 
Little Belts and the Highwood Mountains. We have constructed 
and maintain hundreds of miles of trail, donated thousands of 
hours of labor, and trained over 100 volunteers. We have also 
secured several hundred thousand dollars in grants for 
maintenance and education. In fact, our club received an award 
from then Chief of the Forest Service, Jack Ward Thomas.
    In 1993, travel planning in the Highwood Mountains resulted 
in the closure of 70 percent of the mountain range to motorized 
use, and designation of just 29 miles of motorized trail. The 
latest round of travel planning in the Lewis and Clark National 
Forest began in 2004, and two separate decisions were made in 
2007. Our local club participated in every aspect of the 
planning process, including inventory and collaborative 
meetings, the comment periods for the proposed action and the 
draft EIS.
    Along the Rocky Mountain Front, the decision closed all but 
one short ATV trail in the Badger-Two Medicine area, and most 
of the trails in the remaining areas along the front. In the 
Little Belts, the decision closed all but two routes in the 
90,000-acre Middle Fork of the Judith Wilderness Study Area, 
all of the routes in the Hoover Creek and Tillinghast 
Drainages, and about a third of the routes in the Deep Creek 
Tenderfoot area, permanently. It also closed all but, it closed 
all but a couple trails in the Deep Creek Tenderfoot area 
seasonally, until the 1st of July each year, to protect elk 
calving. Ironically, the problem with the elk herd in the area 
is it is too large. Obviously, the use of the trails in the 
area for the past 50 years had not affected the ability of the 
elk to reproduce.
    The decision in the Little Belts was described as a balance 
because several groups wanted all of the trails closed in the 
wilderness study areas and the inventory roadless areas, but 
roughly half were closed. So I am not saying that none of these 
closures were legitimate or should not have been made, or that 
OHV recreation should be allowed everywhere it was in 1959. 
What I am attempting to demonstrate is that each of these 
decisions had an effect on the ability of the public to access 
public lands, and the cumulative effects of these individual 
decisions has greatly reduced OHV opportunities and 
concentrated the use into smaller areas. The vast majority of 
these trails were sustainable and could have been managed for 
OHV recreation.
    This is a scenario that has repeated itself hundreds of 
times nationwide, and has been accelerated by actions, 
including this Forest Service Travel Management Rule, Roadless 
Rules, and the Endangered Species Act. Areas with strong clubs 
have fared better than areas that haven't had strong clubs, but 
the net result has been massive losses of OHV opportunities in 
many areas.
    It is time for us to begin addressing off-highway vehicle 
recreation in a more holistic way. The NOHVCC has worked 
closely with Federal agencies to teach successful OHV 
management techniques that have been proven over three decades. 
We need to recognize that OHV recreation is an important 
resource, it is an important part of what defines our people, 
and needs protection through effective planning. Then we can 
achieve effective balance.
    [The prepared statement of Mr. Ehnes follows:]

             Statement of Russ Ehnes, Executive Director, 
           National Off-Highway Vehicle Conservation Council

    Mr. Chairman, Members of the Committee,
    My name is Russ Ehnes. I am the Executive Director of the National 
Off-Highway Vehicle Conservation Council, or NOHVCC. I am also a Fourth 
generation Montanan and third generation motorcycle trail rider. My 
grandfather and father began riding back-country trails in 1959 in the 
Lincoln, Montana area soon after my parents met. My mom began riding 
the trails in 1960, the year after my brother was born. Their favorite 
trips were to Hart Lake and Bighorn Lake, near the Continental Divide. 
The trip to Bighorn was an overnight trip that almost always delivered 
great fishing.
    The creation of the Scapegoat Wilderness put an end to those trips 
in 1972 but there were still other places to ride near Lincoln. My 
brother and I were old enough to trail ride by the early 70's so we 
rode the trails with Mom and Dad. One of our favorite rides was from 
Rogers Pass, along the Continental Divide to Flesher Pass and then down 
the Seven-Up Pete drainage to my grandparents' house. That trail was 
closed after the grizzly bear was listed as threatened on the 
endangered species list. In the mid-eighties travel planning resulted 
in the closure of several other key trails in the area and what remains 
open now is an incomplete system of trails that doesn't connect. The 
only way to connect opportunities is with roads that aren't legal for 
OHVs. Forget about the family trail ride in the Lincoln area for now.
    Being from Great Falls, we did most of our riding in the Lewis and 
Clark National Forest. We rode in the Little Belt Mountains but also 
made annual trips to the Badger/Two Medicine area near Browning and 
springtime trips in the Highwood Mountains.
    In 1986 several of us formed The Great Falls Trail Bike Riders 
Association because the Forest Service was again beginning travel 
planning in the Little Belts. Since then we have built the organization 
to over 900 members and have developed trail maintenance agreements on 
most of the trails in the Little Belts and Highwoods, have 
reconstructed and maintained hundreds of miles of trail, donated 
thousands of hours of labor, trained over one hundred volunteers, and 
have secured several hundred thousand dollars in grant funds for 
maintenance and education.
    In 1993 travel planning in the Highwoods resulted in the closure of 
seventy percent of the mountain range to motorized use and the 
designation of just 29 miles of trail to motorized use.
    The latest round of travel planning on the Lewis and Clark began in 
2004. Our local club participated in every aspect of the process 
including trail inventory efforts, collaborative meetings, the comment 
periods for the proposed action and draft EIS.
    The decisions closed all but one short ATV trail in the Badger-Two 
Medicine area and most of the trails in the remaining Rocky Mountain 
Front areas. In the Little Belts it closed all but two routes in the 
90,000 acre Middle Fork of the Judith Wilderness study area, all of the 
trails in the Hoover Creek and Tillinghast drainages and over one third 
of the trails in the Deep Creek/Tenderfoot area permanently. It closed 
all but a couple trails in the Deep Creek/Tenderfoot area until July 
first of each year to protect elk calving. Ironically, the problem with 
the elk herd in the area is that it is too large. Obviously the use of 
trails in the area for the past fifty years had not affected the 
ability of the elk to reproduce.
    The decision in Little Belts has been described as a ``balance'' 
decision because several groups wanted all the trails in the inventory 
roadless areas and the WSA closed.
    I am not saying that none of these closures were legitimate or 
should not have been made or that OHV recreation should be allowed 
everywhere it was in 1959.
    What I am attempting to demonstrate is that each of these decisions 
had an effect on the ability of the OHV public to access public lands 
and the cumulative effects of these individual decisions has greatly 
reduced OHV opportunities and concentrated use into smaller areas. The 
vast majority of these trails were sustainable and could have been 
managed for OHV recreation.
    This is a scenario that has repeated itself hundreds of times 
nationwide and has been accelerated by action including the Forest 
Service Travel Management Rule, the Roadless Rules, and the Endangered 
Species Act. Areas with strong clubs have fared better that areas 
without but the net result has been massive losses of OHV opportunities 
in many areas.
    It is time for us to begin addressing OHV recreation in a more 
holistic way. The NOHVCC has worked closely with the Federal agencies 
to teach successful OHV management techniques that have proven 
successful for more than three decades. We need to recognize that OHV 
recreation is an important resource that is an important part of what 
defines our people and that needs protection through effective 
planning. Only then will we achieve a true balance.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate that testimony. I 
apologize for mispronouncing your name, Mr. Ehnes.
    Mr. Ehnes. That is all right.
    Mr. Bishop. That is as bad as introducing the next guy from 
Colorado or something here.
    Mr. Jones, you are up. If you would, please.

 STATEMENT OF SCOTT JONES, AMERICAN MOTORCYCLIST ASSOCIATION, 
             COLORADO OFF-HIGHWAY VEHICLE COALITION

    Mr. Jones. Chairman Bishop, Ranking Member Garamendi, and 
Members of the Committee, I would like to thank you for this 
opportunity to discuss sustainable recreation on the public 
lands.
    My name is Scott Jones; I am a member of the American 
Motorcyclists Association, I am a member of the Board of 
Directors for the Colorado Off-Highway Vehicle Coalition, and 
thankfully a lifelong outdoor enthusiast.
    The recreation opportunities provided to enthusiasts on 
public lands often range far beyond us riding our equipment. 
They provide opportunities for wildlife viewing, hunting, 
fishing, simply the need to get some exercise and go spend a 
day with good friends.
    These resources are becoming more and more important to 
people. Unlike those that can live in the mountains, a lot of 
us live in urban centers, and that is our sole source of 
recreation. We just don't have it in our back yard any more.
    We believe the management and stewardship of these 
resources is critical. As it has provided a great resource to 
this generation, we would like to pass it on. While the 
national economy has slowed, many of the OHV recreationalists 
have continued to utilize the resources available to them, both 
locally and regionally. Last year $33 billion was spent on 
outdoor recreation equipment alone.
    OHV recreation provided over a billion dollars in positive 
economic impact, and resulted in 12,000 jobs in the State of 
Colorado alone. OHV usage also provided an additional $100 
million in tax revenues to Colorado communities. This revenue 
was obtained for the communities without the need for a tax 
increase; it was merely an increase of revenue.
    While many of these impacts were disproportionately located 
in small Colorado mountain communities, which would basically 
disappear without the income from recreation, the other 
industries are simply not there any more. Recently the Wall 
Street Journal coined a term for these towns, calling them the 
21st Century Ghost Towns. Unfortunately, I believe that could 
be accurate.
    The positive economic impacts from OHV recreation have been 
documented throughout the country. Research into the economic 
impacts on the Paiute Trail System in Utah and the Hatfield-
McCoy System in West Virginia have found significant positive 
economic impacts to the local communities surrounding the trail 
systems. Both of these trail systems have provided over $7 
million in positive economic impacts to the surrounding 
communities, and have accounted for over 150 jobs in the local 
towns, and over $600,000 in associated tax revenues to the 
communities. Many of these communities, again, simply struggle 
to sustain ongoing economic viability.
    The tax revenue that results from state and local 
governments is often overlooked, but can be of great importance 
to these communities, given the lack of other revenue sources 
currently. These revenues are often paid with little complaint 
from recreationalists seeking access to the lands.
    While the Hatfield-McCoy Trail System in West Virginia was 
developed through a public-private partnership, the government 
agencies that partnered with local private entities received 
125 percent payback on their investment, in addition to the 
$600,000 tax revenue generated.
    Additionally, the economic impacts span well beyond simply 
purchasing the machines and equipment. Many of the motorized 
recreationalists are utilizing hotels and motels for their 
recreational access. Recently a study found that one third of 
users in Colorado used a hotel or motel, so our economic impact 
is well beyond just our equipment.
    Research also found that the number of licensed businesses 
tripled in Marysville, Utah, which has operated as a base for 
the Paiute Trail System since it was opened.
    Motorized users in Colorado have also voluntarily formed a 
paid annual registration program to assist the Forest Service 
and BLM in maintaining public access, and offsetting costs 
incurred in managing these programs. Most states have a system 
similar to the Colorado Off-Highway Registration Vehicle 
Program.
    Recently, the State of Colorado performed a survey of 
volunteer hours for users of the public lands. This report 
found that motorized users were by far the largest volunteer 
group on the forest. This volunteer spirit has formed strong 
partnerships with many local employees, and this also helps us 
address a wide range of issues beyond just recreational access.
    The program in Colorado generated over $5 million for the 
management of a wide range of activities. These included 
funding Federal employees who dedicated their time to trail 
maintenance, directly supporting and partnering with law 
enforcement agencies, purchasing equipment, developing parking 
lots, kiosks, and rest rooms.
    In addition, these monies have also gone toward 
partnerships with the Forest Service Research Station and the 
Fish and Wildlife Service for the reintroduction and management 
of endangered and threatened species on public lands.
    The Colorado OHV enthusiasts are currently working with the 
Fish and Wildlife Service to best determine available science 
for lynx management, and usage of recreational activities, and 
possible reintroduction of the wolverine in Colorado. Thank 
you.
    [The prepared statement of Mr. Jones follows:]

             Statement of Scott Jones, Board of Directors, 
                 Colorado Off Highway Vehicle Coalition

    Good Morning. My name is Scott Jones and I am a member of the Board 
of Directors of the Colorado Off Highway Vehicle Coalition and Vice 
President of the Colorado Snowmobile Association and a lifelong outdoor 
enthusiast. I would like to thank the Committee members for providing 
this opportunity to testify regarding opportunities for sustainable 
motorized recreation provided by public lands. These recreational 
opportunities often range far beyond simply riding our equipment and 
include wildlife viewing, hunting and fishing activities, the need to 
shed the rigors of a busy week with some exercise to satisfying the 
simple need to get away from the day to day life with good friends. The 
recreational resources provided by public lands are of increasing 
importance as more and more people are drawn to urban centers, and the 
public lands are relied upon for the sole source of recreation. 
Recreational usage of public lands increases concern for proper 
management and stewardship of the resources in these areas. We believe 
this stewardship insures the recreational experience currently provided 
to the public by outdoor recreation remain available for generations to 
come.
    While the economy has slowed many OHV recreationalists have 
continued to utilize resources that are available to them locally and 
regionally. Last year over $33 billion was spent on outdoor recreation 
equipment. OHV recreation provided over a billion dollars in positive 
economic impact and resulted in over 12,000 jobs in the state of 
Colorado alone. Many of the economic impacts are disproportionally 
located in small mountain towns, which would simply disappear without 
the income provided from those who are utilizing recreational 
opportunities on adjacent public lands. Many of the other industries, 
such as mining and forestry, that have historically supported these 
communities has simply disappeared.
    Research into the economic impacts of the Paiute Trail system in 
Utah and the Hatfield & McCoy trail system in West Virginia have found 
significant positive economic impacts on communities surrounding these 
trail systems. Both trail systems have provided over a 7 million dollar 
positive impact to surrounding counties and over $600,000 in associated 
tax revenue to those counties. These communities that have struggled 
severely to maintain basic economic viability for a long time after the 
industries that once supported the communities have closed.
    The tax revenue that is made available for state and local 
governments as a result these economic impact from OHV recreation is 
often overlooked. These revenues are paid with little complaint from 
recreationalists seeking to access public lands. This simply cannot be 
said for a lot of other taxes.
    The economic impact from OHV recreation takes a lot of different 
forms in addition to the purchase of the machines that are ridden and 
safety equipment needed, motorized users also require trucks and 
trailers to move their equipment and most users are staying in hotels 
and motels and buying parts and accessories for their equipment. 
Research has found that approximately 1/3 of recreational users in 
Colorado are including a hotel or motel stays and associated meals as 
part of their OHV recreational experience and vigorously utilizing 
available restaurants after a day of riding.
    In addition to the positive economic impacts, motorized 
recreational users in Colorado have developed a paid annual 
registration program to provide funding to partner with the Forest 
Service and BLM to improve and maintain public lands experiences. Most 
states have programs similar to the Colorado OHV registration program. 
These moneys are leveraged with funds from the Recreational Trails 
Program and volunteer hours to maintain sustainable recreation on the 
forest. Recently a Colorado report was that totaled volunteer hours for 
all groups of public lands users. This report found that motorized 
recreation was the largest source of volunteer hours for forest 
management, this volunteering has resulted in strong partnerships with 
district employees which can help a wide range of issues that may not 
be directly related to recreational usage of the areas such as search 
and rescue.
    Last year the Colorado OHV registration program generated over 5 
millions of dollars that directly benefitted all users of public lands 
with on the ground management of all recreation through a wide range of 
projects. This included purchase of equipment and funding statewide 
teams of federal employees dedicated to trail maintenance, directly 
supporting and partnering with law enforcement agencies, development of 
parking lots, kiosks and restrooms. The registration funds also 
provided signage and sound testing equipment to promote voluntary 
compliance with sound standards and preparing and producing maps 
designating legal area usages and extensive educational programs and 
programs targeting the sustainable usage of the forests.
    Registration monies have also funded partnerships with the Forest 
Service's Research Station and Fish & Wildlife Service for the 
reintroduction and management of endangered or threatened species on to 
the public lands. Colorado OHV enthusiasts are working with the FWS to 
determine best available science for the management of the lynx in 
conjunction with recreational usage of the habitats and possibly the 
wolverine on public lands in Colorado.
    While the economic impacts of OHV recreation are relatively simple, 
the planning process for public access can be very complex. We are 
aware planning for usages of the public lands is never going to be easy 
given the wide range of competing interests in usage of the forest 
lands. Unfortunately the process has become so complex that most users 
of the forest are simply overwhelmed by the complexity which results in 
limited participation and a lot of frustration. This is unfortunate as 
participation in planning for the forest fosters stewardship in the 
public lands and forms strong relationships with local land managers, 
which can be invaluable for a lot of issues.
    While roadless area designations may serve a commendable purpose in 
theory by trying to provide a dispersed recreational experience to all 
users of the forest often roadless designations are misapplied and in 
manners that directly contradict the clear language of the rule. These 
misunderstandings can be the result of the numerous court proceedings 
and variations on the rule that have been developed over the years to 
something as simple as misunderstanding the name, as roads can and do 
exist in roadless areas and trails for dispersed motorized recreation 
are to be protected by the roadless area designation. Simply mentioning 
the term roadless area will elicit a collective groan from all users of 
the forests.
    I have had the privilege of working with the facilitators in the 
development of the new Colorado Roadless rule proposal. The meeting 
facilitators had came to a rather stunning conclusion in the developing 
the public hearings for the proposed rule. All user groups simply 
wanted consistency in the rule and something that could be easily 
applied.
    The complexity added to a planning process by a roadless 
designation often outweighs the benefits obtained from a roadless area 
designation in comparison to management decisions for the area made 
under existing forest plans and determinations. Roadless areas are 
often designated under a land management category that is designed to 
protect and preserve dispersed recreation. We believe that the new 
Colorado roadless rule is a step towards providing clarity and 
consistency in planning for roadless areas we also believe any 
reductions in roadless area designations are welcome to the users of 
the public lands as any reduction in roadless areas will result in 
expanded multiple usage of the forests.
    We believe that Rep McCarthy's proposed wilderness and roadless 
area release legislation is a great first step in reducing the 
confusion and frustration to forest users that the roadless area 
designation invokes. The Forest Service has already prepared the 
research to determine significant portions of designated roadless areas 
are not available for more protective designations. Releasing these 
areas would expand multiple usage and the associated economic benefits 
without reducing existing Forest Service budgets as is proposed with 
the purchase of additional lands under the Presidents Great Outdoors 
initiative.
    Unfortunately the new FS planning rule does not streamline the 
planning process as a lot of new theories and standards are introduced 
into the planning process. We believe the new theories and standards 
will result in significant expenses as unit level as representatives 
attempt to deal with the new standards and rules. Many key terms are 
poorly defined, such as what level restoration activities will be 
deemed complete. The end result of these limited definitions is Courts 
will be forced to determine what the correct standard for each term is. 
Despite the expanded costs to be incurred under the Plan no funding 
resources are identified to assist with coverage of these costs in the 
short term. This will significantly tax the already strained budgets of 
the units as they have been forced to deal with the massive beetle kill 
epidemic that has plagued the rocky mountain region.
    We would ask that land managers be allowed to do what they know how 
to do best. Their management has allowed the public lands to be managed 
to provide recreation to this generation and this generation would like 
to provide the same recreational opportunities to the following 
generation and protect the economic benefits that the public lands 
provide to all users
    I would like to thank the committee members for providing this 
opportunity to discuss recreational usage of public lands and would 
welcome any questions you may have.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Bishop. Thank you, I appreciate it. Like we say, your 
full written testimony will be included in the record.
    Mr. Lepley, I hope I pronounced that properly.
    Mr. Lepley. Yes, you did.
    Mr. Bishop. You are up for five minutes, please.

STATEMENT OF DICK LEPLEY, EXECUTIVE DIRECTOR, PENNSYLVANIA OFF-
                  HIGHWAY VEHICLE ASSOCIATION

    Mr. Lepley. Chairman Bishop, Ranking Member Grijalva, and 
distinguished Members of the Subcommittee on National Parks, 
Forests, and Public Lands, thank you for giving me the chance 
to testify regarding the positive economic impact of off-
highway vehicle recreation.
    As the owner of a 44-year-old dealership known as Street, 
Track, and Trail in Conneaut Lake, Pennsylvania, as an avid 
enthusiast, and as the Executive Director of the Pennsylvania 
Off-Highway Vehicle Association, I have seen firsthand the 
incredible growth of OHV recreation, and the impact it can have 
on local, and often rural, economies.
    The numbers speak for themselves, especially during these 
difficult times. In 2009, the estimated economic value of the 
off-road vehicle retail marketplace was $14.6 billion, 
bolstered by the sale of 131,000 new off-highway motorcycles, 
and 321,000 new ATVs, which are now part of the estimated 12.2 
million dirt bikes and ATVs in America.
    My dealership employs 50 people, and during the good 
economy we generate nearly $2 million in payroll, and pay over 
$2 million in state and Federal taxes yearly. There are 13,230 
dealerships similar to mine nationwide, employing over 107,544 
Americans, with a payroll of over $3.6 billion. Clearly, the 
power sports industry contributes mightily to the nation's 
economy during both good times and bad.
    But regardless of the economy, nothing threatens 
dealerships and the industry-at-large like having no place to 
ride.
    It is encouraging that you are holding this hearing today, 
as it often seems like there is a never-ending stream of 
special land designations, rules, regulations, and other 
efforts to limit OHV access to the lands that belong to all of 
us.
    Here in the East we have far less access to public lands 
than folks in the West, but the struggle for trail miles is the 
same nationwide.
    For example, the 108-mile motorized trail system in the 
Allegheny National Forest in western Pennsylvania has for 
decades been recognized as the model for doing it right. It has 
attracted thousands of riders, and generated millions of 
dollars for the regional economy.
    But instead of recognizing the growth potential, the ANF is 
putting its efforts into non-motorized recreation. I find this 
alarming for a number of reasons.
    For one, the ANF embraces over a half-million acres, but 
our 108 miles of motorized trails occupy well under one tenth 
of 1 percent of the total forest. And unlike most recreational 
disciplines on the ANF, we willingly pay to play every time we 
saddle up.
    It has been years since I have struggled through an economy 
as challenging as the current one, and it is readily apparent 
that every job counts. If I could deliver just one message 
today, it would be that OHV opportunities equal jobs. Where 
trail systems exist, the power sports industry and dealerships 
thrive, and local communities flourish.
    This doesn't mean we don't have a commitment to our shared 
natural resources. I recognize there are special places across 
America that deserve protection, and that OHV should not be 
allowed on every acre of public land. But I believe there is 
room for all us. And further, that responsible access to our 
public land is the birthright of all Americans.
    I don't expect you to shirk your duties to protect public 
lands, but instead to encourage you to consider the full impact 
that land use decisions have on Americans, including the 
revitalizing effect that building or expanding a trail system 
can have on local economies. And conversely, the negative 
impact that unnecessarily closing existing trails or preventing 
the addition of new ones can have, as well.
    Local areas share a symbiotic relationship with the public 
lands that surround them. Residents are often dependent on the 
wages, recreation, and way of life public land offers. But so, 
too, is public land dependent on those who care for and watch 
over it. Simply putting up signs that say closed will not serve 
to protect our lands. Instead, it will take active management, 
and a commitment from those whose livelihoods depend on the 
long-term health of our resources.
    In closing, I want to reiterate the enormous impact the 
power sports industry has on the economy, and the positive 
effect that OHV trails have on the communities they serve. And 
to state once again that sustainable OHV opportunities equal 
jobs. Thank you.
    [The prepared statement of Mr. Lepley follows:]

             Statement of Dick Lepley Executive Director, 
              Pennsylvania Off-Highway Vehicle Association

    Chairman Bishop, Ranking member Grijalva, and distinguished members 
of the Subcommittee on National Parks, Forests, and Public Lands. . 
.thank you for giving me the chance to testify regarding the positive 
economic impact of off-highway vehicle recreation.
    As the owner of a forty-four year old dealership known as Street 
Track `N Trail in Conneaut Lake, Pennsylvania, as an avid enthusiast, 
and as the Executive Director of the Pennsylvania Off-Highway Vehicle 
Association, I've seen first-hand the incredible growth of OHV 
recreation, and the impact it can have on local and often rural 
economies.
    The numbers speak for themselves, especially during these difficult 
times. In 2009, the estimated economic value of the off-road vehicle 
retail marketplace was $14.6 billion dollars bolstered by the sale of 
131,000 new off-highway motorcycles and 321,000 new ATV's which are now 
part of the estimated 12.2 million dirt bikes and ATV's in America.
    My dealership employs fifty people, and during a good economy we 
generate nearly two-million dollars in payroll, and pay over two-
million dollars in state and federal taxes yearly. There are 13,230 
dealerships similar to mine nationwide, employing over 107,544 
Americans with a payroll of over $3.6 billion dollars. Clearly, the 
power sports industry contributes mightily to the nation's economy 
during both good times and bad, but regardless of the economy, nothing 
threatens dealerships and the industry at large like having no place to 
ride.
    It's encouraging that you're holding this hearing today as it often 
seems like there is a never ending stream of special land designations, 
rules, regulations, and other efforts to limit OHV access to the lands 
that belong to all of us. Here in the East, we have far less access to 
public lands than folks in the West, but the struggle for trail miles 
is the same nationwide. For example, the one-hundred-eight mile 
motorized trail system in the Allegheny National Forest in western 
Pennsylvania has for decades been recognized as the model for doing it 
right. It has attracted thousands of riders, and generated millions of 
dollars for the regional economy. But instead of recognizing the growth 
potential, the ANF is putting its efforts into non-motorized 
recreation. I find this alarming for a number of reasons. For one, the 
ANF embraces over a half-million acres, but our one-hundred-eight miles 
of motorized trails occupy well under a tenth of a percent of the total 
forest. And, unlike other recreational disciplines on the ANF, we 
willingly pay to play every time we saddle up.
    It has been years since I've struggled through an economy as 
challenging as the current one, and it is readily apparent that every 
job counts. If I could deliver just one message today it would be that 
OHV opportunities equal jobs. Where trail systems exist, the power 
sports industry and dealerships thrive, and local communities flourish.
    This doesn't mean we don't have a commitment to our shared natural 
resources. I recognize there are special places across America that 
deserve protection, and that OHV's should not be allowed on every acre 
of public land. But, I believe there is room for all of us, and 
further, that responsible access to our public lands is the birthright 
of all Americans.
    I don't expect you to shirk your duties to protect public lands, 
but instead to encourage you to consider the full impact that land use 
decisions have on Americans, including the revitalizing effect that 
building or expanding a trail system can have on local economies, and 
conversely, the negative impact that unnecessarily closing existing 
trails or preventing the addition of new ones can impose.
    Local areas share a symbiotic relationship with the public lands 
that surround them. Residents are often dependent on the wages, 
recreation, and way of life public land offers, but so too is public 
land dependent on those who care for and watch over it. Simply putting 
up signs that say closed will not serve to protect our public lands. 
Instead, it will take active management, and a commitment from those 
whose livelihoods depend on the long-term health of our resources.
    In closing, I want to reiterate the enormous impact the power 
sports industry has on the economy, and the positive effect that OHV 
trails have on the communities they serve, and to state once again, 
that sustainable OHV opportunities equal jobs. Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you. Ms. Umphress, tell me how that is 
supposed to be.
    Ms. Umphress. That is correct, Umphress.
    Mr. Bishop. OK, thank you. You are on.

    STATEMENT OF KAREN UMPHRESS, BOARD MEMBER, COALITION OF 
 RECREATIONAL TRAILS USERS, MINNESOTA MOTORIZED TRAIL COALITION

    Ms. Umphress. Thank you, Committee Members and Chairman 
Bishop, for allowing me to be here today. My name is Karen 
Umphress, and I am a member of the Coalition for Recreational 
Trail Users and the Minnesota Motorized Trail Coalition.
    Both of these coalitions in Minnesota are made up of four 
very strong individual state associations, the All-Terrain 
Vehicles, Off-Highway Motorcycles, Off-Road Vehicles, which in 
Minnesota are four-wheel drives, and Snowmobiles.
    However, in Minnesota, snowmobiles have their own 
designation; they are not included in the off-highway vehicle. 
So the rest of the information I have will not include 
snowmobile numbers or information.
    Off-highway vehicle recreation is very important, and often 
essential, to Minnesota and our economy. We have two main ATV 
and snowmobile manufacturers in our state, Arctic Cat and 
Polaris. We also have over 360,000 registered ATVs, OHMs, and 
ORVs in the state, that use a designated trail system.
    According to a 2006 University of Minnesota economic impact 
study, ATVs alone had an annual impact of over $2 billion 
annually. This figure includes $86 million in state and local 
tax revenues, and sustains nearly 14,500 jobs.
    The University of Minnesota did a followup study in 2009 
that looked at all trail users in the state, both motorized and 
non-motorized. Motorized trail users spend more money per trip 
than non-motorized trail users. Yet the amount of trails 
available for motorized users is inadequate for the number of 
riders who wish to participate in trails-related activities.
    I have more statistical information in my written 
testimony; I just want to give some anecdotal information to 
help show the points of the economic impact.
    In Minnesota we have an area that is called the Iron Range, 
which is an area that has taconite mining. And this area has 
been depressed since taconite mining and taconite are no longer 
as valuable as they used to be.
    We have an area on the Iron Range called the Quad Cities. 
It is made up of Eveleth, Virginia, Mountain Iron, and Gilbert. 
And Gilbert was known as the red-light district in the Iron 
Range, and was working very hard to reverse its not-so-good 
image, and the other Quad Cities were also working to improve 
their economy.
    So one of the things that they looked at was an off-highway 
vehicle riding park. This riding park was the first one in 
Minnesota, and there were a lot of misconceptions of who the 
off-highway vehicle rider was, and what we were looking for in 
a trail system.
    During the planning process, only Gilbert was willing to 
put an entrance to the park from their town. Prior to the 
opening of the park in October of 2002, the All-Terrain Vehicle 
Association of Minnesota had one of their annual conventions. 
This had 850 participants. And to help drive home who an off-
highway vehicle rider was to the community, the members of 
ATVAM all changed in their money for two-dollar bills. And they 
spent all of their services, their hotel, their lodging, 
everything, using these two-dollar bills.
    So it did two things: It helped show the people of the 
community who the people who rode in the park were, and showed 
them that these, this money that was coming into the community 
was from that park. The Iron Range Resources Tourism Bureau 
estimates that over $125,000 went into the community on just 
that one convention.
    Since the opening of the park, Gilbert is the only town on 
the Iron Range that is expanding their businesses, and the 
business expansion is all due to off-highway vehicles, such as 
service washes, hotels, things like that.
    The other two cities, Virginia and Eveleth, have asked for 
an expansion to the park to more than double the size, and to 
also have an entrance for their city, from their towns as well, 
so they too may grow.
    The City of Appleton is in the southwestern section of the 
state. They have expanded their off-highway vehicle park three 
times now, and will continue to expand it as long as they have 
land acquisition and funding available. But one of the main 
drivers of the economic development for them is they also had a 
1400-bed private prison.
    This private prison closed because the prisoners were being 
moved to state and county locals. They have not had an overall 
economic decline from the prison closing, due to the positive 
effects of the off-highway vehicle recreation areas.
    So in closing, I just want to say that we have a lot of 
registered OHV users, but not enough trails. So the economic 
impacts could be even greater if we had much more trail systems 
available.
    Thank you very much.
    [The prepared statement of Ms. Umphress follows:]

 Statement of Karen Umphress, Board Member, Minnesota Motorized Trails 
        Coalition and the Coalition of Recreational Trail Users

    In Minnesota, there are 3 types of Off-Highway Vehicles (OHV). They 
are an All Terrain Vehicle (ATV), an Off-Highway Motorcycle (OHM), an 
Off-Road Vehicle (ORV, which are 4-wheel drive vehicles). Snowmobiles 
are also in the state, but are listed in a separate category of 
vehicle. There is a state association for each type of OHV plus the 
snowmobiler association. The Minnesota Motorized Trails Coalition 
(MMTC) is made up of members from each of the state associations. The 
Coalition of Recreational Trails Users (CRTU) is a separate, 
educational coalition with 3 board members from each of the 4 state 
associations.
    Off-Highway Vehicles are an important part of life in Minnesota. 
They are used for assistance in agriculture and hobby farms, as a means 
to access hunting and trapping areas, as a means to access areas for 
berry picking or other forest uses, as a form of transportation in 
place of automobiles in parts of the state, and as a form of 
recreation. They are an important part of the lifestyle, culture, and 
tourism within the state. They are also part of a large economic engine 
that helps drive the state's economy forward.
    The state of Minnesota houses the headquarters of both Polaris and 
Arctic Cat. Both companies make snowmobiles and ATVs. They employ 
thousands of people directly in their home offices and manufacturing 
plants, as well as indirectly, including smaller companies that make 
parts such as drive trains and axels, for the company.
    A large portion of the economic engine of OHVs is the recreational 
use. There were over 360,000 OHVs registered for recreational use in MN 
in 2010. This figure does not include the thousands of other ATVs that 
are registered for use as agricultural implements, which must remain on 
private property.
    In 2006, the University of Minnesota completed an economic impact 
study of ATV use in Minnesota. The highlights of this study are:
    Direct ATV-Related expenditures: $641.9 millionq02
    Of the total travel expenditures: $260.3 million spent at the 
destination
        $311.8 million spent at home and en route
    Economic impact of expenditures: 8,756 jobs
        $224.6 million wages and salaries:
        $491.2 million contributed to GSP
        $48.9 million tax revenueq02
    ATV related retail activity: 1,477 jobs
        $39.2 million wages and salaries:
        $79.3 million contributed to GSP
        $6.9 million tax revenueq02
    ATV manufacturing activity: 4,216 jobs
        $165.6 million wages and salaries:
        $349.2 million contributed to GSP
        $30.4 million tax revenueq02
    Totals: 14,449 jobs
        $429.4 million wages and salaries:
        $919.7 million contributed to GSP
        $86.2 million tax revenueq02
    Combined total including expenditures: $2.08 billionq02
    While ATVs are the largest sector of OHV riders in Minnesota, the 
number above would be higher if OHMs and ORVs were included in the 
report. The report also does not calculate the indirect impacts such as 
the companies which manufacture parts that are used by the ATV 
manufactures, marketing, government agencies that administer or 
regulate the trails, etc. The report also does not calculate the impact 
of non-resident recreational riding in Minnesota.
    All of this impact is generated on 858 miles of recreational trails 
plus 2,379 miles of System Forest Roads and Minimum Maintenance roads. 
In addition, there are 143 miles of OHM-only trails.
    In 2009, the Minnesota Recreational Trail Users Association (MRTUA) 
worked with the University of Minnesota to discover the trail user's 
economic impact for both motorized and non-motorized terrestrial trail 
use (although there are over 4,000 water trails in Minnesota, their use 
was not included). Motorized recreationalists contribute more money to 
the economy during their use of the trails, then non-motorized 
recreationalist. The chart below indicates the amount of money spent 
per day directly related to trail activities of longer than 30 minutes:


                ,--                                   ,

                Runners                  $26
                In-line Skaters          $26
                Walkers/Hikers           $39
                Horseback Riders         $43
                Bicycle Riders           $44
                ATV Riders               $46
                Snowmobile Riders        $49
                Cross-Country            $54
 Skiers                                  $63
                OHM Riders               $69
                ORV Riders


    The positive economic impact of the recreational trail use is only 
one of the ways that recreational OHV use creates a positive economic 
impact for Minnesota. For example, there are 8 motocross promoters in 
the state whose living is based on OHM recreation. Spring Creek 
Motocross Track is the largest of the motocross tracks in Minnesota. It 
holds several amateur events and 2 professional events each season. The 
Rochester Post Bulletin newspaper did an article on one of the 2 
professional races, estimating that one event pulls over $4 million 
into the local economy. For the track itself, about 20,000 people 
attend the event, it has about 150 event staff, 50 security personnel, 
hire about 25 local sheriffs and other police officers, several EMT 
personnel, a dozen local food vendors and a dozen local accessories 
vendors. They also hire the local 4-H club to pick up the grounds after 
the event and to assist with parking the cars. Then there are the local 
hotels, restaurants, gas stations, parts shops, etc. that derive income 
from this one event. The article states that the gas station in near-by 
Zumbro Falls sets its summer staffing according to the Spring Creek 
track event schedule.
    To help accentuate the full impact of the statistics and studies, 
let me share with you some real examples of the impacts of the 
recreational use of OHVs in Minnesota:
    1) The Iron Range OHV Recreation Area. This park was the first OHV 
riding park in the state of Minnesota. As you may expect, the Iron 
Range area of Minnesota is the location of the mining industry in 
Minnesota. The Quad Cities of the Iron Range are Eveleth, Gilbert, 
Mountain Iron, and Virginia. Gilbert was known as the red light 
district of the Iron Range and was working hard to reverse that image. 
The rest of the Quad Cities were also working to improve their economy 
since taconite and taconite mining were no longer as valuable. During 
the planning process for the OHV Recreation Area, only the city of 
Gilbert was willing to put an entrance to the park in its city due to 
the fears from the misconceptions of the types of people who ride OHVs.
    Prior to the park opening in October of 2002, the All Terrain 
Vehicle Association of Minnesota held its spring convention at the 
park. To help the community get a more realistic idea of who an OHV 
rider is, ATVAM members used $2 bills to pay for their services in the 
area. This act made a tremendous impression with the local community. 
The iron range resources tourism board estimated that the economic 
input to the local area from that one convention was over $125,000.
    Since the opening of the park, Gilbert is the only town on the iron 
range that is expanding the amount of businesses in town and the 
businesses are directly related to the OHV park, such as parts stores, 
camping areas, OHV wash areas, etc. The nearby cities of Eveleth and 
Virginia have requested access to the park directly from their towns 
and the City of Virginia is working with the DNR and user groups to 
open an expansion of the park, more than doubling its size.
    2) The City of Appleton had a city park that was not getting used 
due to flood damage. Because of the cost to continue to repair the 
paved walkways, the city started to explore other uses of the area. One 
of the ideas was to turn the area into an OHV park. The Swift County 
Board of Commissioners did its research and got behind the idea. The 
park was built and first opened in 2004. Since that time, the city has 
opened 2 additional expansions and plans to continue to open other 
expansions as land and funding for acquisition becomes available.
    The City of Appleton also houses a 1400 bed private prison. This 
prison was closed by the owners because of the decreasing use of the 
prison by the state governments, which moved to house as many inmates 
in state and county prisons as possible. However, the city has not seen 
an over-all economic decline from the closure of the prison due to the 
positive economic of the OHV riding area.
    3) The City and County of Houston are working on bringing tourism 
to their town in the Southeastern corner of the state. They have 
already put in a trailhead for a walking/bike path and have a fly-
fishing trout steam running through their area. They still need 
additional tourism income to help the city to prosper. They are turning 
to OHV recreation. They have started the planning and acquisition 
process to purchase private land for an OHV trail system. As part of 
the planning process, national experts were brought in to hold an OHV 
Management Workshop in the City of Houston. Although it is still years 
before the OHV trail system will be open, the Mayor already feels like 
the plan has had a positive economic impact since the workshop brought 
the first catering contract to the local deli and the city's 
accommodations were all filled for the first time since the largest 
hotel opened in 2005.
    Without the trail systems that currently exist in Minnesota, there 
would be little opportunity for the positive economic impact in the 
state from the recreational use of OHVs. And yet, the potential for a 
greater impact is still there. During the recession, the registrations 
for OHVs dipped, but there are signs that in a few years the number of 
registrations will again be on the rise. With over 360,000 registered 
vehicles, and only 1,001 state trail miles, there is a lot of room for 
improvement of these economic numbers.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Bishop. Thank you. And our final gentleman on this 
panel is Mr. Akenson. I heard you had a hairy trip getting in 
here, but I appreciate it.

   STATEMENT OF JIM AKENSON, EXECUTIVE DIRECTOR, BACKCOUNTRY 
                      HUNTERS AND ANGLERS

    Mr. Akenson. Thank you. Good morning, Chairman Bishop and 
Committee Members, and thank you for acknowledging my trip. It 
actually was about equal to the trip I used to do on horseback 
in the Idaho backcountry to go vote, which was a 55-mile trail 
ride. So anyway, I am here.
    My name is Jim Akenson, and I live in Joseph, Oregon, 
surrounded by the spectacular Wallowa Mountains within the 
Wallowa-Whitman National Forest. I am representing Backcountry 
Hunters and Anglers as the Executive Director. I am also 
representing a partner organization of ours, Teddy Roosevelt 
Conservation Partnership.
    Both these organizations are nonprofit conservation groups 
that serve traditional outdoorsmen and women from nearly all 50 
states.
    America's national forests, refuges, and rangelands are 
treasures to the people of this nation. Over 100 years ago, 
President Theodore Roosevelt helped create this priceless gem. 
He also knew this public demand of more than 200 million acres 
would become more and more valuable as America grew and 
developed, and he was right.
    In today's rapid-pace society, we often forget that 
America's original wild country advocates were sportsmen, the 
likes of Theodore Roosevelt, Gifford Pinchot, and Aldo Leopold. 
These men cherished wildlife, wild places, and harvesting 
nature's bounty through hunting and fishing. They left behind 
for us a legacy and a mission to protect and wisely use our 
nation's precious natural resources.
    Today we face a very important question: How do we balance 
the use of the public treasure in a way that guarantees clean 
water and wildlife habitat in a nation that is now home to over 
300 million people?
    Between new technology like motorized recreation and 
industrial uses like oil and gas development, our public lands 
are under more and more pressure. The U.S. Forest Service has 
nearly 375,000 miles of official roads in its inventory, and a 
minimum of 60,000 miles of unofficial user-created routes, 
enough to circle the Earth 17 times at the Equator.
    While most of my career has been as a wildlife biologist, I 
can tell you with certainty that protecting wild, natural 
places from industrial development and motorized recreation has 
very real benefits for our wildlife and water resources. But 
today I would like to focus on another element, the human 
element.
    I have a unique perspective on the topic of wilderness and 
our public lands, as I have been very privileged to live 21 
years in Idaho's Frank Church-River of No Return wilderness. My 
wife, Holly, and I manage an educational and research facility 
for the University of Idaho, called Taylor Ranch Field Station.
    Over two decades we mentored hundreds of people who came to 
this remote wilderness setting to experience and learn about 
the natural world. They came from diverse backgrounds, 
political views, and places from around our nation. Besides 
educating these young Americans on natural resource issues and 
practices, we exposed them to simple traditional skills, 
through putting up hay with a mule team and traveling long 
distances by horse and mule, or on foot with a backpack.
    They experienced much more than the beauty of wild places 
and wildlife. They experienced the same sense of self-reliance 
and accomplishment felt by Teddy Roosevelt, when he was a young 
adventurous man experiencing the vanishing wild West of the 
Dakota Territory.
    For my wife, Holly, and I, that rich lifestyle is mostly 
behind us now. We moved back to town. Of course, we moved to a 
county that only has--well, it doesn't have any traffic lights. 
But we constantly get comments from scores of past students 
that their most memorable college experience was learning the 
old ways of America deep in the Idaho backcountry. A single 
visit to the wilderness can shape a life forever. Places 
affording these types of experiences are becoming rare in this 
country.
    My group, Backcountry Hunters and Anglers, and our partner 
organization, Teddy Roosevelt Conservation Program, were 
founded by fathers and mothers who know that the great outdoors 
will help shape the character of their children. They want to 
make sure their children and grandchildren will be free to 
enjoy the sounds and sights of nature, and enjoy clean, free-
flowing rivers.
    Groups like ours are not working merely to protect the land 
and water for next hunting season or fishing season; we are 
working for generations to come. Or, as TR put it, those still 
in the womb of time.
    The economic value of wild lands and water in America is 
huge, with billions of dollars per year paid to commercial 
outfitters who take people on float trips on wild rivers and 
pack trips in the mountains of Federally owned public lands. 
Not to mention millions of private individuals that head to the 
outdoors on their own, and buy gear at local outdoor stores.
    Let us be perfectly clear. There are plenty of places to 
ride off-road vehicle in our national forests. These are 
popular tools. However, we must also have big wild habitat that 
is completely separate from the noise and disturbance that 
comes from motorized traffic.
    Likewise, there are places where oil and gas development, 
logging, and mining are perfectly appropriate uses for our 
national forests. But they must be balanced with the larger 
purpose behind our public lands. Our public lands are owned by 
all Americans. Congress hires professionals to manage these 
resources. Let us give them the leeway and the tools they need 
to do their mission: serve the greatest good, for the greatest 
number, for the long run.
    Consider this. When Theodore Roosevelt was President, there 
were about 100 million Americans. When I was born, there were 
roughly 200 million. Today, we are somewhere around 310 
million. The figure will continue to grow.
    Our public land legacy is a gift to each and every one of 
them and those to come. We must manage it wisely. Once our 
backcountry is gone, there is no getting it back.
    Thank you for considering my testimony.
    [The prepared statement of Mr. Akenson follows:]

        Statement of Jim Akenson, Backcountry Hunters & Anglers

    Good morning, Mr. Chairman and Committee members. My name is Jim 
Akenson. I live in Joseph, Oregon, surrounded by the spectacular 
Wallowa Mountains within the Wallowa-Whitman National Forest. I am 
representing Backcountry Hunters & Anglers, a non-profit conservation 
group that represents traditional outdoorsmen and outdoorswomen from 
nearly all 50 states. I serve as executive director of that 
organization.
    America's national forests, refuges and Bureau of Land Management 
lands are treasures to the people of this nation. Over 100 years ago, 
President Theodore Roosevelt helped create this priceless American 
birthright. He knew this public domain of more than 200 million acres 
would become more and more valuable as America grew and developed. He 
was right.
    In today's rapid-paced society we often forget that America's 
original wild country advocates were sportsmen: the likes of Theodore 
Roosevelt, Gifford Pinchot and Aldo Leopold. These men cherished 
wildlife, wild places, and harvesting nature's bounty through hunting 
and fishing. They left behind, for us, a legacy and a mission to 
protect and wisely use our nation's precious natural resources.
    Today, we face a very important question: how do we balance the use 
of this public treasure in a way that guarantees clean water and 
wildlife habitat in a nation that is now home to 300 million people?
    Between new technology like motorized recreation and industrial 
uses like oil and gas development, our public lands are under more and 
more pressure. The USFS has nearly 375,000 miles of official roads 
(U.S. Forest Service 2006) in its inventory and a minimum of 60,000 
miles of unofficial, user created routes (U.S. Forest Service 2001), 
enough to circle the earth 17 times at the equator!
    With most of my career spent as a wildlife biologist, I can tell 
you with certainty that protecting wild, natural places from industrial 
development and motorized recreation has very real benefits for our 
wildlife and water resources. Everyone benefits from natural 
backcountry, because the benefits of backcountry literally spill out of 
it in the form of clean rivers and abundant wildlife.
    But today I would like to focus on another element: the human 
element.
    I have a unique perspective on the topic of wilderness and our 
public lands, as I have been very privileged to live deep within the 
America's wilderness. I spent 21 years in Idaho's Frank Church-River of 
No Return Wilderness. My wife, Holly, and I managed an educational and 
research facility for the University of Idaho called Taylor Ranch Field 
Station.
    Over two decades, we mentored hundreds of people who came to this 
remote wilderness laboratory to experience and learn about the natural 
world. They came from backgrounds ranging from city life in Chicago, 
Illinois, and Seattle, Washington, to rural ranch life right in Idaho. 
These were primarily young adults whose parents' political views varied 
from conservative Republican to liberal Democrat. Besides educating 
these young American's in natural resource issues and practices, we 
exposed them to the ways of ``old Idaho'' through putting up hay with a 
mule-team and traveling long distances by horse and mule or on foot 
with a backpack. They experienced much more than the beauty of wild 
places and wildlife. They experienced that same sense of self-reliance 
and accomplishment felt by Theodore Roosevelt when he was a young 
adventurous man experiencing the vanishing wild-west of Dakota 
Territory.
    For Holly and me that rich lifestyle is mostly behind us now. We've 
moved back to town. But we constantly get comments from scores of past 
students that their most memorable college education experience was 
``learning the old ways of America'' deep in the Idaho backcountry. A 
single visit to the wilderness can shape a life forever. Places 
affording these types of experiences are becoming rare in this country.
    The peace, solitude and physical challenge of the backcountry--
including wilderness areas, roadless areas and well-managed working 
forests--are important for millions of American families. My group, 
Backcountry Hunters & Anglers, was founded by fathers and mothers who 
know that the great outdoors will help shape the character of their 
children. They want to make sure their children and grandchildren will 
be free to enjoy the sounds and sights of nature, and enjoy clean, 
free-flowing rivers. Groups like ours are not working merely to protect 
the land and water for next hunting season or next fishing season. We 
are working for generations to come--or as TR put it ``those still in 
the womb of time.''
    The economic value of wild lands and waters in America is huge, 
with billions of dollars per year paid to commercial outfitters who 
take people on float trips on wild rivers of the West, Alaska, and the 
Great Lakes region, and who provide horse and mule pack trips in the 
mountains and canyon lands on our federally owned public lands. These 
high quality experiences are dependent on wild backcountry that is free 
from the noises of man's machines and high-tech devices. As a resident 
of a ``gateway'' community, I assure you that the near proximity to 
Wallowa Lake and the Eagle Cap Wilderness Area help bring investment 
and jobs to my home town.
    Let's be perfectly clear: There are plenty of places to ride off-
road vehicles on our national forests. These are powerful and popular 
tools. However, we must also have places--big, wild habitat--that is 
completely separate from the noise and disturbance that comes from 
motorized traffic. Likewise, there are places where oil and gas 
development, logging and mining are perfectly appropriate uses for 
national forests--but they must be balanced with the larger purpose 
behind our public lands.
    Our public lands are owned by all Americans. Congress hires 
professionals to manage these resources. Let's give them the leeway and 
the tools they need to do their mission: serve the greatest good, for 
the greatest number, for the long run.
    Consider this: When Theodore Roosevelt was president, there were 
about 100 million Americans. When I was born, there were roughly 200 
million. Today, we are somewhere around 310 million. This will continue 
to grow.
    Our public land legacy is a gift to each and every one of them, and 
those to come. We must manage it wisely. Once our backcountry is gone, 
there's no getting it back.
    Thank you for considering my testimony. I am happy to answer any 
questions.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate all of those who have 
spoken to us so far. We will now open this up for questions 
from the panel. I traditionally have gone first, but I am going 
to yield my time to the other Members of our Committee first.
    So Mr. McClintock from California, do you have questions 
for this group?
    Mr. McClintock. Yes. I would just like to begin with Mr. 
Ehnes. Gifford Pinchot, the founder of the National Forest 
Service in 1905, described its mission thusly: To provide the 
greatest amount of good, for the greatest amount of people, in 
the long run.
    How would you say they are currently meeting that charge?
    Mr. Ehnes. I have a lot of good friends who work in the 
Agency, and work very hard to achieve that goal. And I think 
that, you know, on many fronts they are doing a good job.
    On off-highway vehicle recreation, I think that the new 
Forest Service Travel Management Rule from 2005 presented them 
with a fairly difficult challenge. It put them in a fairly 
compressed timeframe, to do a fairly complex job, a very 
complex job. And in some areas, I think they did OK. But in 
many areas, because of the pressures to get the job done 
quickly, I don't think the right amount of planning went into 
it.
    And I think there were decisions made to close more trail, 
and err on the side of getting it done sooner, than probably 
were necessary in most areas.
    Mr. McClintock. Well, that has certainly been the 
experience in my district, which is the northeast corner of 
California. Most of it is national forest, and we are being 
flooded by complaints of Forest Service abuses of the public on 
the public's land, in a pattern that seems to suggest that they 
view their mission as excluding the public from the public's 
land.
    Are you seeing the same thing nationally?
    Mr. Ehnes. Nationally, yes, there has been a lot of trail 
loss for off-highway vehicle, due to the Travel Management 
Rule.
    Mr. McClintock. The complaints that we are receiving go far 
beyond that. Imposing inflated fees that are forcing the 
abandonment of family cabins that have been held for 
generations, charging exorbitant new fees that are closing down 
long-established community events upon which many small and 
struggling mountain towns depend for tourism, expelling 
longstanding grazing operations on specious grounds, 
obstructing the sound management of our forests through a 
policy that can only be described as benign neglect.
    What are your members telling you?
    Mr. Ehnes. We are hearing those same types of complaints. 
Because I am in the off-highway vehicle field professionally, 
that is mostly what I hear about. And the vast majority of 
folks that I have spoken to have not been happy with the Travel 
Management Rule results.
    Again, the Forest Service is made up of a lot of different 
people, and there are some very dedicated folks. But I think 
that the Travel Management Rule was rushed, and the results 
were very negative.
    Mr. McClintock. I sense that there is a fundamental change 
of attitude in the Forest Service over the past decade or so, 
from one of public service, welcoming the public to the 
public's lands, of fulfilling Gifford Pinchot's vision for the 
Forest Service. That is being replaced by an elitist, 
exclusionary, extreme attitude that the Forest Service mission 
is to close the forests to the public.
    Mr. Jones, what are your members telling you?
    Mr. Ehnes. We are hearing that from a lot of people. And 
again, there are good people in the Agency, and I have seen the 
face of the Agency change over the last few years, as a lot 
of----
    Mr. McClintock. It is becoming downright alarming. Mr. 
Jones, Mr. Lepley, I want to give you a chance to jump in on 
this.
    Mr. Jones. Actually, we have been participating in some 
wolverine reintroduction discussions with the Colorado 
Department of Wildlife, and we have had some pretty diverse 
partner groups coming in. Like, as you mentioned, the cattlemen 
and forestry groups.
    And we all have a surprising amount of similarity in our 
concerns. I think you pretty accurately summarized them. That 
sometimes keeping public access is not the priority. And it is 
concerning.
    Mr. McClintock. Mr. Lepley?
    Mr. Lepley. Yes, I would say the same thing. The Allegheny 
National Forest is the only national forest in Pennsylvania, 
and it is somewhat unique. If you look at the Allegheny, in 
many respects it is an open history book of America's growth.
    It has been heavily trammeled over by the oil and gas 
people, by lumber, et cetera. And it is a latticework of roads 
that display that history in a pretty grand style.
    And what we are seeing up there, and it is pretty common 
knowledge, there have just been some major contentious lawsuit 
issues with the O and G folks.
    Mr. McClintock. I am afraid my time is running out, Mr. 
Lepley. And I just want to make a statement.
    Mr. Chairman, we are getting flooded by complaints in my 
district over these exclusionary attitudes that seem to be 
running rampant now in the Forest Service management. And I 
think at some point this Committee is going to have to step in 
and remind the Forest Service that they are public servants, 
not public masters. And that the national forests are not the 
king's royal forests, but belong to all of the people of the 
United States.
    Mr. Bishop. Thank you, I appreciate that. Now to the other 
gentleman from California, Mr. Garamendi.
    Mr. Garamendi. Much of what my colleague from California 
was describing in the Forest Service in his area is found 
throughout the United States. And the Forest Service has been 
severely stressed by very, very significant budget reductions. 
More than half of the Forest Service budget is consumed in 
fighting fires, and what remains, as the population pressures 
and the multiple uses of the forest continue to press upon the 
National Forest System and the U.S. Forest Service, they have 
very little time and staff and money available to carry out 
their tasks.
    One of their tasks is to provide the multiple recreation 
and uses of the forests. And therefore, a couple of questions, 
if I might, to the panel.
    Mr. Lepley, you mentioned that there are 1.2 million dirt 
bikes and ATVs in 2009. When you started, how many were there 
in 1959?
    Mr. Lepley. Well, in 1959?
    Mr. Garamendi. Yes.
    Mr. Lepley. That is reaching way back. That was the first 
year Honda started in America. There were no ATVs. Which have 
become now basically half of the industry. And what motorcycles 
were out there were very small.
    At that point in time, the off-road influence would have 
been negligible.
    Mr. Garamendi. Yes. And Mr. Ehnes, I think you were the one 
that gave part of those statistics. Could you describe--I think 
you said, one of you said you started in 1959?
    Mr. Ehnes. My grandfather and my father started riding in 
1959.
    Mr. Garamendi. Do you know how many bikes there were, and 
ATVs, in 1959?
    Mr. Ehnes. I don't have any statistical information, but 
there were not a lot.
    Mr. Garamendi. Well, that difference, between not a lot, or 
none in the case of ATVs, is precisely why we have this issue 
before us. We have a huge number of off-the-road vehicles out 
there, and we have very little money to plan, to maintain the 
trails. Is that correct? I think it is. Anybody think that is 
incorrect, say so.
    That being the case--go ahead.
    Mr. Ehnes. If I may, you are correct that there are 
budgetary challenges for the Forest Service. They do deal with 
a very challenging budgetary situation.
    There are solutions, and they are local solutions. And a 
good example of that, I mentioned the Highwood Mountain Range, 
where only 29 miles of trail is designated. But those 29 miles 
are extremely important to our local riders. So we partnered 
with the Charlie Russell Backcountry Horsemen and a number of 
civic groups, and did the entire implementation of the 1993 
Travel Plan through volunteer labor. And not one dime for trail 
construction for maintenance of that implementation was spent, 
of Forest Service money. It was all done with grants and with 
volunteers.
    Mr. Garamendi. Excellent. Excellent. But the point----
    Ms. Umphress. And if I may.
    Mr. Garamendi. Yes, please, go ahead.
    Ms. Umphress. If I may add, there is also the Recreational 
Trails Program, which takes the unrefunded gas tax money from 
off-highway vehicle use, and puts it out to the states for 
trail acquisition and maintenance, as well.
    Mr. Garamendi. The combination of what resources, what 
financial resources are available, together with volunteer 
organizations, is absolutely critical in this. There is no 
doubt that off-the-road vehicles provide very important 
recreational opportunities. They also have the potential to 
have a very heavy impact on the land and, therefore, 
maintenance and wise locations become extremely important.
    So in this process, it is not just one thing or another; it 
is a combination. I am curious if the industry might be 
interested in a fee system to provide the public lands, BLM, 
Forest Service and the rest, with the money it needs to design, 
locate, and maintain off-the-road vehicle facilities. And any 
one of you, just down the line left to right, or right to left, 
from your perspective, does that make sense?
    Mr. Ehnes. Sir, yes, it does. And what you have stated is 
correct. And what we are advocating is that planning and 
management of off-highway vehicle recreation is critical.
    And the off-highway vehicle world at large has actually 
been proponents of the idea of user fees in areas where 
maintenance needs to be applied. The only caveat is that riders 
need to be assured that the money that they pay for maintenance 
of an area in fact goes back to those areas. But we have been 
floating that idea for a number of years.
    Mr. Garamendi. That issue also exists at every national 
park where they have an entrance fee. Is it used at that park, 
or is it used someplace else. It is an ongoing debate and 
issue.
    I think I am almost out of time. But I think if we are 
going to adequately address this issue, it is going to take 
money and resources, and a combination of good will on the part 
of everybody. Much of what my colleague from California 
complained about was the result of insufficient funds that the 
Forest Service has, and therefore they had to shut down those 
areas simply to protect them, so that some other day in the 
future they might be available.
    Thank you for the extra 35 seconds, Mr. Chairman.
    Mr. Bishop. Thank you. We will take it off next time.
    [Laughter.]
    Mr. Bishop. Mr. Labrador, the gentleman from Idaho.
    Mr. Labrador. Thank you, Mr. Chairman. It sounds like once 
again, when we deal about budgetary challenges, that the 
solution is a local solution that I think the off-road vehicle 
industry and many other people are willing to probably take 
care of this.
    It is true in your state, and it is true in Idaho. Where 
they are willing to take care of their own roads, and they are 
willing to do the things that, once again, we show the 
mismanagement and the poor planning of having the Federal 
government try to govern everything in the United States.
    I want to welcome Mr. Akenson from my, who lived in my part 
of the world for a long period of time. Thank you for being 
here.
    I just have one simple question, and I want everybody to 
answer it. In your opinion, has the off-highway vehicle rule 
resulted in an overreach by the agencies to further other 
agendas, and limit use in unreasonable ways? And if you believe 
that it has, can you give me some examples of that? Starting 
with Mr. Ehnes.
    Mr. Ehnes. Mr. Chairman and Members of the Committee, I 
believe that the Forest Service Travel Management Rule has had 
unintended consequences. And those unintended consequences are 
that great, great numbers of trails, large numbers of trails 
have been shut down nationwide. And it has given our community 
a real challenge to try to maintain adequate riding areas that 
are connected, and meet our needs.
    I think that, you know, it will continue to challenge us 
into the future. But we need to work together with the agencies 
to come up with systems that work.
    Mr. Labrador. Mr. Jones. And if you have specific examples.
    Mr. Jones. Actually, we in Colorado have varying degrees of 
success with partnering with some of the forests, and it works 
really well. And then unfortunately, in some of the other 
forests, it doesn't work so well.
    And I would have to agree, on some of the forests that we 
just finished comments on an appeal on the Travel Management 
Plan. And it was pretty clear that Travel Management was being 
used to further a lot of other concerns and issues, other than 
responsible sustainable recreation on the forest. And that was 
really troubling to us.
    Mr. Labrador. Like what, for instance?
    Mr. Jones. Actually, they developed ideas of a whole new 
category of wilderness, something called Capable and Available 
for Wilderness, as a roadless area. I had never heard of that 
before, and it wasn't in the Land Management Plan. We tend to 
question why that was ever even come up with.
    There were a lot of concerns where comments were 
erroneously submitted, and that were relied upon for closures 
in areas that were open legal riding areas to us. And you went 
back and looked at it, and the comment was just wrong. You 
know, they said ``Oh, this was closed,'' but it wasn't.
    Mr. Labrador. Thank you. Mr. Lepley.
    Mr. Lepley. Yes. In the Allegheny, early on there was a 
significant amount of volunteer effort that went into that 
system, and that worked extremely well. We have not been able 
to accomplish that, and the system now needs maintenance. And 
of course, there is a fee structure up there. We pay to play 
every time we go in there.
    The numbers have dropped up there, and I don't think it is 
just the economy. I think to a certain extent, the 
infrastructure in that system has not grown to handle the use. 
Hence, it is not as fun to be there. The camping is lacking, et 
cetera, and everything has been kind of shrouded in history. 
Rather than an open dialogue being made available and working 
with associations like ours and other groups to actively get 
involved in a system and make that system better, that just 
hasn't happened.
    And it is really annoying, because that forest is sitting 
within hours of millions and millions of people. And if it was 
looked at from an entrepreneurial standpoint, it could blossom 
and grow, and generate even more revenue. And that is what I 
find disheartening.
    Ms. Umphress. The Chippewa National Forest in Minnesota at 
the first pass, it did close most of the off-highway vehicle 
routes to it. But I do want to say that the current forest 
ranger has been very open to working with the club that formed, 
and that now has about 200 members. And some of those trails 
are starting to open back up.
    Mr. Labrador. Mr. Akenson.
    Mr. Akenson. Yes, I am going to use the Lymm High Mountain 
Range, which you are familiar with, in East Idaho as an 
example, where I have done bighorn sheep research, and seen a 
lot of abuses, off-trail abuses, by ATVs. But I have to put a 
caveat on that.
    We, being those folks that are interested in trail 
restrictions, are teaming up with some local ATV clubs, and 
decommissioning some of those trails. And the way I see it with 
the Forest Service, we are looking at an issue of enforcement. 
They don't have money. And the main way that I see that being a 
problem for those of us who are interested in quiet situations, 
is through enforcement.
    So the rogue users of ATVs are reined back in check, and 
kept out of places where they shouldn't be, that do cause 
wildlife disturbance, which I documented in some bighorn sheep 
research.
    Mr. Labrador. I spent this weekend actually dirt-biking, 
and there were a lot of quiet places out there, as well as 
places where I could enjoy with my kids. I actually went on a 
fathers-and-sons activity, and it was quite enjoyable to be 
able to go out there and enjoy nature, and also enjoy the 
activities that we wanted to participate in. Thank you very 
much.
    Mr. Bishop. The eruption of the fathers-and-sons bit, huh? 
Yes. Fortunately I am older than that, I don't have to do that.
    I have a couple of questions. First of all, I am happy that 
all of you have addressed the gentleman from California and a 
couple of other questions about the role of partnerships, 
especially in tough budget times. And you said some very 
positive things about how all those can work out.
    Can I ask a couple of very quick ones? Ms. Umphress, first 
of all, in your testimony you said that OHV enthusiasts spend 
more in Minnesota, anyway per day, than other types of 
recreationists. Why do you think that is the case?
    Ms. Umphress. Off-highway vehicle riders have, they have to 
buy gas. They generally have more maintenance on their 
machines. They generally stay overnight at hotels, bring their 
supplies with them. They can carry more with them at a time.
    The study in Minnesota said walkers and bikers generally 
use, pay about $39, and off-road vehicles generally pay about 
$69 per day for each vehicle trip.
    Mr. Bishop. All right, I appreciate that. Just very 
quickly, you talked about the Iron Range Recreation Area. How 
did you get the funding to develop that?
    Ms. Umphress. We used the Recreational Trails Program, 
which is the unrefunded gas tax. We also combine it with a 
state program that is similar, that we call the Grant and Aid 
Program, that uses the state unrefunded gas tax.
    Mr. Bishop. Thank you. For you as well as Mr. Lepley, 
probably Mr. Lepley, ATV and off-road bikers have been 
sometimes characterized, I think unfairly, as thrill-seekers 
and renegades, and oftentimes, jerks.
    So Mr. Lepley, specifically in your dealership, how do you 
direct riders to legal areas and promote safe and responsible 
riding?
    Mr. Lepley. Well, it starts with staff training. We are 
adamant about using safety gear around the dealership. You 
don't ride a motorcycle or ATV on the premises without a helmet 
on.
    And we preach the message all the time. We do so via public 
service announcements through radio and TV, and the store is 
loaded with information. You would be amazed at the volume of 
good information out there from the Motorcycle Industry 
Council, from NOHVCC, from the state itself.
    We keep all of the map materials on hand in the dealership, 
because we are questioned about where to ride all the time. And 
so we have all of the mapping for the Allegheny.
    And again, our staff is trained to promote safe use of 
everything we sell. It is just the way we do business. And I 
think that is the best way to do it, in the dealership.
    Mr. Bishop. Thank you. Mr. Ehnes, I guess the question is 
what kind of trails make the best experience. I am assuming it 
is safe to say that a better-managed trail is a better riding 
experience?
    Mr. Ehnes. Oh, absolutely. In fact, at NOHVCC we actually, 
in our workshops, teach sustainable trail design. And trails 
that are built in a sustainable fashion actually are much more 
fun to ride. And they become a management tool because riders 
have trails that they want to ride on, not that they have to 
ride on.
    Mr. Bishop. And Mr. Lepley again. When you talked about the 
ANF shift in one side, was that a shift to closing trails in 
the forests? Or was it simply not expanding them?
    Mr. Lepley. Well, this is somewhat speculation, but we have 
been concerned over the last few years with closures. And it 
seems when we, as an association, have gotten involved, and 
began to question what is going on, then suddenly maintenance 
will pick up and things get better.
    I don't know what would happen if we turned our backs on it 
entirely. And it has been a struggle. And that forest is under 
a lot of stress right now, with all of the oil and gas 
development and timber issues, et cetera. It has always been an 
industrial kind of forest.
    So yes, I am not sure what would happen if we just turned 
our back on it and went away. It is one of constant 
maintenance.
    Mr. Bishop. Let me throw out a general question to anyone 
who wants to answer that. Can I have any of you that would 
compare the economic benefits of areas that allow mechanized 
vehicle use versus those that don't allow mechanized, try to 
close it off to any kind of mechanized vehicle use? Wilderness, 
for example. Is there a comparison in the economic benefit? I 
have only got less than a minute here.
    Ms. Umphress. I don't believe there is any specific study 
on wilderness, just the Minnesota study that compared all trail 
users.
    Mr. Bishop. And you gave me that material already.
    Ms. Umphress. Yes.
    Mr. Bishop. Can I ask one last question? I have 43 seconds, 
42, 41, to do this.
    [Laughter.]
    Mr. Bishop. You know, when Pinchot said the greatest good 
for the greatest number, does anyone know what he was really 
talking about? Because he was pretty clear on that. All right, 
for my next history lesson, I will give you that one later. I 
think it may surprise a lot of people what he actually meant 
when he said that phrase.
    Since you went over, I am going to go under. And do you 
want a second--I just did it, sorry. If you have other 
questions, please feel free.
    Mr. Akenson. Thank you, Mr. Chairman. Can I make a quick 
comment on that, greatest good?
    Mr. Bishop. Please.
    Mr. Akenson. OK. I think you are looking at something that 
gets, renders down to some real basic economics. And that is, 
there are a lot of Americans that can't afford to have a 
motorcycle or a four-wheeler, but they can afford to buy a 
little bit of gas to go to someplace to go on a hike. And that 
hiking experience is a lot more rewarding if it is a quiet 
hiking experience.
    And I think that if you really looked at the true numbers, 
all the population of this country, you would see that most 
Americans do that form of recreation. Thank you.
    Mr. Bishop. It is a good guess. It is not what Pinchot 
meant, but it is a good guess. Thank you. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. Whatever he meant, 
he said it nearly a century ago, and we have added about 200 
million-plus to our population.
    Mr. Akenson, is your notion of an OHV a horse?
    Mr. Akenson. No, it is not. No. And actually, when I was 
doing bear and cougar research in Oregon, I used ATVs 
extensively as a work tool. And I think they are a fine tool. 
And I am certainly willing to work with ATV entities to come up 
with solutions. But I just feel that there needs to be quiet 
places for recreating, and places where you can take a pack 
string and not run into an ATV that does make noise.
    Mr. Garamendi. If you are a hunter or a fly fisherman or in 
that area, I suppose an ATV or a snowmobile and the rest might 
be a troublesome thing to have nearby.
    Mr. Akenson. Yes, it can be, that is for sure.
    Mr. Garamendi. I think what we are really dealing with here 
is how to apportion our public lands so that we can achieve a 
balance. Clearly, there are places where we don't want to have 
motorized vehicles, for the reasons stated by Mr. Akenson. And 
clearly, there are other places where we need it. And the 
Minnesota situation, where the community came together and 
decided that these things would work well in that area, is a 
good example.
    But I think there is an overarching problem there, and I 
would like our Committee to really spend some time focusing on 
it. That is that we have well over 300 million Americans, we 
have 12.2 million off-the-road vehicles of various kinds. And 
that puts enormous pressure on the public lands. And while 
there are vast public lands, the pressure is usually found in a 
specific area, where people congregate because of the nature of 
the terrain, or access, and the like.
    What we don't have is the money to manage it. We need to be 
very, very clear about this. We have been cutting back at the 
Federal level money to manage the public lands. And that is a 
reality.
    At the same time, the money that is available is going into 
things like firefighting. How much money is being spent by the 
Federal government in Arizona in the last month? An enormous 
amount of money that is not available for other purposes in 
those national forests and BLM land in that area.
    There is a money problem here. And much of the, in my 
experience in California, which has been extensive, a lot of 
the shutdown of various trails and the like is due to the 
inability of the Forest Service to guarantee safety, 
maintenance, and protection of the public resources.
    So what I would like all of the folks here, particularly 
the off-the-road vehicle folks, to ponder is how do we deal 
with this. Fees? At the end of this fiscal year, the highway 
fees expire. Gone. We are going to have to renew them, as in 
raising taxes. Will this be part of that tax program, as we re-
fund or reestablish those? You need to think about it.
    And so I would ask, in my last 30--and I am going to 
subtract 35 seconds here--in my last minute, for all of you to 
ponder the necessity for the off-the-road vehicle industry to 
participate financially in supporting the public lands use for 
off-the-road vehicles. Without that, further restrictions are 
inevitable, because it is the responsibility of the public land 
managers to manage the land for the long term. And the long 
term can seriously be destroyed by the inappropriate use of 
off-the-road vehicles.
    Mr. Akenson, there is nothing I would like better than to 
go into the wilderness area and be left alone, without the 
sound of my own political voice, but rather, the sound of the 
wilderness. Thank you very much.
    And I guess I used my 35 seconds, Mr. Chairman.
    Mr. Bishop. I thank the witnesses on this particular panel 
for your testimony and for your answers, your written testimony 
and oral testimony. And I thank you very much, appreciate you 
being here. We will excuse you at this time, and invite the 
next panel of witnesses to join us.
    Once again, I thank you all for being here. I thought you 
were going on the assumption if we burn down the forest, we 
don't have to worry about any of this, right?
    Coming up here, if we could, we have Mr. Amador from the 
Blue Ribbon Coalition; Tom Crimmins, who is the Lead Spokesman 
for the Professionals for Management Recreation; Mr. Sutton 
Bacon, CEO of the Nantahala Outdoor Center--is that even 
close--Outdoor Center.
    Once again, we appreciate all of you being here. Same 
situation as before. You have your written testimony; I ask you 
to do the oral within five minutes. Same process will be there, 
green, keep going; yellow, you have one minute; when it is red, 
we ask you to stop. And we welcome you to be here.
    Mr. Amador.

                   STATEMENT OF DON AMADOR, 
                     BLUE RIBBON COALITION

    Mr. Amador. Mr. Chairman and Members of the Committee, I 
appreciate the opportunity to appear before you today to share 
my views and the views of the Blue Ribbon Coalition, regarding 
the single-largest public land closure of its kind in U.S. 
history. And that is the ongoing closure of 75,000 acres of BLM 
lands to all public users.
    My name is Don Amador; I live in Oakley, California. I am a 
recreation and public land advocate, who has championed 
responsible access to public lands for the last 21 years. I am 
owner of Quiet Warrior Racing, a recreation and public land 
consulting company, and I am a contractor to the Blue Ribbon 
Coalition, where I serve as its western representative.
    In 2002, Dirt Rider Magazine listed Clear Creek as one of 
the top 10 OHV recreation sites in the country. It is located 
mostly in the southern San Benito County in the Coastal 
Mountain Range.
    While the closure only technically closed 33,000 acres, it 
functionally closed 75,000 acres, since practically all route 
networks originate in the technically closed area.
    Sadly, Mr. Chairman, unlike other BLM units in California, 
I believe Hollister, with help from EPA, has failed to fulfill 
its Congressional multiple-use mandate via its current effort 
to use junk science and personal agendas in a scheme to create 
de facto wilderness without Congressional approval or 
direction.
    I believe that Hollister is not in compliance with the 
President's and the Department of the Interior's scientific 
integrity policy. In 2008, before the emergency closure, EPA's 
draft risk analysis model said the health risk from naturally 
occurring asbestos could be, in quotes, ``perhaps zero.'' Yet, 
in EPA's final report, they simply removed that phrase.
    NOA occurs in various public and private lands in 43 
counties in California, many of which contain popular local, 
county, state, and Federal recreation sites. Because many of 
those areas are important for multiple-use recreation, the Off-
Highway Motor Vehicle Recreation Division of California State 
Parks commissioned an independent health study.
    On March 22, 2011, a report was completed by scientists 
from the International Environmental Research Foundation, the 
Department of Physics at Harvard University, and the Center for 
Applied Studies of the Environment at the City University of 
New York. According to that new and scientifically valid 
report, the health risk at Clear Creek is similar to the 
lifetime risk of death from smoking less than one cigarette 
over a one-year period.
    They noted other recreational activities, such as swimming, 
hiking, and snow skiing, are over 100-fold more dangerous.
    Other Department of the Interior units, such as BLM at 
Samoa Dunes and Redwood National Park, they simply post signs 
to warn of hazards. Yet Hollister selected to ignore those 
management tools, and willfully selected to ban recreation at 
Clear Creek instead of posting signs.
    Ken Deeg, a local law enforcement officer, believes the 
County's 2010 decision to reopen 25 miles of its roads was 
based on the fact that Hollister and EPA had manipulated and 
embellished their data and test results.
    In its effort to create a non-motorized ecotopia, Hollister 
is erasing all evidence of OHV recreation that existed on this 
unit for the last 60 years. Hollister has ripped up relatively 
new public rest room facilities and staging areas along the 
main access road. Between 1981 and 2007, OHV recreations, 
through state recreation grants, contributed approximately $7 
million to the management of Clear Creek. No doubt, during that 
same time period, millions of dollars of appropriated funds 
have also been spent to manage multiple-use recreation on that 
unit.
    After reviewing Hollister's illegitimate decision-making 
process to date, I believe Congress should consider bipartisan 
legislation that designates the 75,000-acre Clear Creek 
management area as a National Recreation Area, where OHV 
recreation and other uses are codified as a proscribed use.
    I thank the Committee for allowing me to testify on this 
all-too-important issue. And I would like Exhibits A, B, C, D, 
and E included with my written testimony. I look forward to 
working with Congress and the Agency to find a way to reopen 
Clear Creek for OHV recreation and other multiple-use 
activities.
    At this time I would be happy to answer any questions. 
Thank you.
    [The prepared statement of Mr. Amador follows:]

             Statement of Don Amador, Blue Ribbon Coalition

Testimony--Statement by Donald Amador that questions the BLM's 
decision-making process associated with the ongoing landscape level 
functional closure of the 75,000 acre Clear Creek Management Area 
(CCMA) to all user groups on May 1, 2008. This unit is managed by the 
Hollister Field Office (HFO) and is located in Fresno and San Benito 
Counties in the Central Coast Mountain Range of California.
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to appear before you today to share my views, the views of 
the BlueRibbon Coalition, and views of other multiple-use interests 
about the single largest public land closure of its kind in U.S. 
history.
    My name is Don Amador; I am a native of Humboldt County in Northern 
California. I currently live in Oakley, California in the Delta Region 
of the Central Valley. I am a recreation and public land advocate who 
has championed responsible access to public lands for the last 21 
years. I am owner of Quiet Warrior Racing, a recreation and public land 
consulting company. As a contractor to the BlueRibbon Coalition, I 
serve as its Western Representative. In addition, I currently serve as 
a member of Region 5's California Recreation Resource Advisory Council.
    Recently, I served on the Del Norte County/Forest Service 
stakeholder group, which successfully brought diverse interest groups 
together to try and resolve contentious issues surrounding a recent 
Forest Service Travel Management Decision. Based on that experience and 
experience derived from service on other recreation-based stakeholder 
groups, I am confident that with your help a solution to the Clear 
Creek closure saga can be found.
    Mr. Chairman, before getting into the substance of my concerns, I 
want to give the committee a quick overview of CCMA. In 2002, Dirt 
Rider Magazine listed Clear Creek as one of the top 10 OHV recreation 
sites in the country. It is located mostly in southern San Benito 
County in the Coastal Mountain Range that separates the Salinas Valley 
from the Central Valley. While the closure only ``technically'' closed 
33,000 acres, it functionally closed 75,000 acres since practically all 
route networks originate in the closure area. Before the emergency 
closure in May 2008, the unit was open for OHV use on approximately 242 
miles of designated routes from October 16th to May 31. This unit also 
contains approximately 25 miles of county roads.
    Clear Creek has been a historic mining area since the 19th century. 
California's official state gem, Benitoite, is found only in this area. 
In the 1950's and 1960's, the primary mineral extracted was naturally 
occurring asbestos (NOA). Today, the major mining operations that 
produced asbestos have ceased operations. Yet, before the May 2008 
emergency closure, the area remained a popular site for gem and mineral 
collectors. The area is also a popular venue for the hunting community.
    I have operated OHVs in CCMA since the early 1980s. As part of the 
land stewardship program at BRC, I assisted the HFO from 2001-2008 at 
numerous amateur motorcycle events by performing the SAE-J1287 20-inch 
sound test to make sure attendees complied with state sound laws.
    I consider many BLM employees on various units to be both personal 
friends and professional colleagues who work hard to fulfill the 
agency's multiple-use mandate, protect natural resources, and jealousy 
guard public trust.
    Sadly Mr. Chairman, unlike other BLM units in California, I believe 
the HFO with support from EPA has failed to fulfill its congressional 
multiple-use mandate via its current effort to use junk science in a 
scheme to create de-facto Wilderness without Congressional approval or 
direction.
    Ultimately, I believe that Congress is the appropriate legislative 
body that can help the public get answers to the many unanswered 
questions regarding the bizarre and historic closure of CCMA to all 
human uses and the ongoing decision-making process surrounding the May 
2008 emergency closure.
ISSUE ONE--Scientific Integrity of the Decision/Science Used to Issue 
        the May 1, 2008 Emergency Closure Order
    Based on the attached email (Exhibit A) obtained by FOIA, it 
appears the Department of Interior's scientific integrity policy has 
been compromised by HFO/EPA. When HFO questions EPA as to why HFO 
should make an emergency land management closure decision based on a 
risk analysis model so low that it is ``perhaps zero'', EPA responded 
by simply removing the phrase in the final report.
    In an urgent April 2008 pre-closure meeting between BRC 
representatives and the agency, BRC urged the HFO to not use flawed 
science to effect the May 1, 2008 emergency closure. Despite our 
substantive pleas, HFO decided to use flawed science and personal 
agendas as a foundation for the closure and the subsequent NEPA 
planning process.
    NOA occurs on various public and private lands in 43 counties in 
California many of which contain popular local, county, state, and 
federal recreation sites. Because many of those areas are important for 
multiple-use activities, the California State Park Off-Highway Motor 
Vehicle Recreation Commission requested that the Off-Highway Motor 
Vehicle Recreation Division (OHMVR) of California State Parks complete 
an independent NOA health study.
    On March 22, 2011, the Off-Highway Motor Vehicle Recreation 
Division of California State Parks released an independent report 
analyzing naturally occurring asbestos exposures associated with OHV 
recreation and hiking at Clear Creek. The report was completed by 
scientists from the International Environmental Research Foundation 
(IERF), the Department of Physics at Harvard University, and the Center 
for Applied Studies of the Environment at the City University of New 
York.
2011 IERF Report
http://ohv.parks.ca.gov/pages/1140/files/ierf_ccma_final_3_8_11-web.pdf
    The OHMVR Division commissioned the IERF report to gather more data 
to determine if management and operational strategies could be employed 
at the CCMA to mitigate risk while still allowing access to this 
premier off-highway vehicle recreation.
    According to the report, ``. . .this risk [health risk from NOA] is 
similar to the lifetime risk of death from smoking less than one 
cigarette over the same one year period [riding season]. Other 
recreational activities, such as swimming, hiking, and snow skiing are 
over a 100-fold more dangerous.
    The percentage of mesothelioma deaths predicted among the CCMA 
motorcycle riders for both sexes (0.000016%) is more than 6,500-fold 
lower than percentage of mesothelioma deaths in the US general 
population (0.11%).
    Based on the IERF analysis, the results of which are included 
herein, there is clearly an opportunity to allow OHV recreation at 
CCMA. Under the conditions we observed, and similar seasonal 
conditions. OHV enthusiasts would not be exposed to unacceptably high 
levels of airborne asbestos.''
    According to IERF, EPA Region 9 continues to refuse access to their 
air sample and seasonal asbestos background datasets.
    As you might expect, the BLM and EPA continue to inexplicably 
defend their decision to close CCMA to all human uses with the basis of 
that decision cast on the tenets of what many users, other publics, and 
IERF scientists consider flawed science. It appears the agency 
continues to favor a permanent ban on OHV recreation as articulated in 
the current CCMA NEPA planning process.
IERF May 23, 2011 Response to BLM/EPA Defense of Flawed Science/Closure
http://ohv.parks.ca.gov/pages/1140/files/ierf-epa-rebuttal-ccma.pdf
ISSUE TWO: Faux Liability Issue
    BRC is concerned HFO created an artificial liability for itself 
(and hence the taxpayer) in its initial decision to issue an emergency 
closure order and in subsequent planning documents without any 
consideration for other viable and reasonable means of addressing what, 
if any risk, may exist. BRC is also concerned this faux liability 
issue, if not addressed, could be used by the agency as justification 
to prohibit pro-OHV/access alternatives from being selected.
BRC April 19, 2010 Letter on Liability Issue
http://www.sharetrails.org/uploads/CCMA_DEIS_Turcke_Comments_
        Supplemental_4-19-10.pdf
    As BRC stated, it believes the Hollister Field Office continues to 
chart its own and strangely unique course with its decision-making 
framework. HFO's continues to believe that CCMA lands ought to be 
rendered inaccessible based wholly on a now disproved assumption that a 
public health risk from NOA will impact OHV recreationists.
    BRC believes HFO should review management prescriptions such as 
signs and public outreach currently being used by sister land 
management agencies to caution the recreation public about the life 
threatening hazards of rock climbing, snow skiing, swimming, and 
boating.
ISSUE THREE--County Asserts Access Rights
    On April 6, 2010 San Benito County passed a resolution that 
reopened approxiemtly 25 miles of county roads within CCMA.
April 6, 2010 San Benito County Resolution
http://www.sharetrails.org/uploads/San_Benito_County_Road_Resolution_
        2010.pdf
    Just as many user groups and other stakeholders questioned the 
decision-making process used by the BLM/EPA to close roads and trails 
within CCMA, the County of San Benito reviewed options to assert its 
right to manage their own roads within CCMA.
    Ken Deeg, a local law enforcement officer and member of the Friends 
Clear Creek Management Area and TimeKeepers Motorcycle Club, states 
(Exhibit B) ``. . .in early 2010 after viewing the email information 
and photos I received through [a] FOIA that the BLM and EPA manipulated 
and embellished the September 2005 dust sampling test, San Benito 
County Board of Supervisors realized they were mislead by the BLM's 
Hollister Field Office and voted to take back their roads inside Clear 
Creek and re-open them to the public. . ..''
    Again, after reviewing Deeg's information, revelant laws, 
regulations, impacts of the closure to the local economy, and science, 
the county came to the conclusion that its roads do not present a 
health risk and that they should be open for public use.
ISSUE FOUR: Willful Obliteration of Existing Recreation Facilities Paid 
        for by Taxpayers and with User Fees
    In its effort to create a non-motorized ecotopia, the HFO is 
erasing all evidence of OHV recreation that has existed on this unit 
for the last 60 years; the agency has ripped up relatively new public 
restroom facilities along the main access road. It has also obliterated 
and/or rendered useless many traditional family camping sites in this 
same area.
    Between 1981 and 2007, OHV recreationists through the OHMVR grants 
program contributed approxiemtly $7 million dollars to CCMA for trail 
and facility construction, route maintenance, resource protection, and 
law enforcement. No doubt during that time period, millions of dollars 
of appropriated funds have also been spent to manage multiple-use 
recreation on that unit.
    My assertions are substantiated by a June 17, 2011 letter (Exhibit 
C) from Commissioner Eric Leuder, Chairman of the California Off-
Highway Motor Vehicle Recreation Commission. On April 6, 2011, he 
witnessed in person the destruction of historic recreation facilities. 
The destruction of property was authorized in a previous environmental 
assessment based on the false assumption that the Evening Primrose was 
a threatened species. Subsequently, new agency biologists have found 
that species to be abundant. Yet, the HFO with this new information 
continues on its path to erase any evidence that OHV recreation staging 
areas existed on the unit.
    While the HFO works hard to destroy all vestiges of it multi-
million dollar recreational infrastructure, it has found the time to 
waste over $2 million dollars of taxpayer funds to construct its much 
vaunted ``decontamination center'' at the entrance to CCMA.
    Based on the aforementioned issues and concerns, I believe the HFO 
and EPA should answer the following questions.
        1.  Is the HFO and EPA's decision-making process and supporting 
        documents in compliance with the March 9, 2009 Memorandum 
        (Exhibit D) on Scientific Integrity issued by President Obama 
        that states the. . .public must be able to trust the science 
        and scientific process informing public policy decisions?
        2.  Is the HFO and EPA decision-making process and supporting 
        documents in compliance with subsequent memos (Exhibit E) from 
        EPA Administrator, Lisa Jackson, and Interior Secretary Ken 
        Salazar, reaffirming the need to foster honesty and credibility 
        in science conducted and used by the Agencies?
        3.  Why has the EPA refused to share requested information from 
        their study with other scientists?
        4.  Why does the HFO continue to destroy and obliterate the 
        existing recreation infrastructure--paid for with state OHV 
        grants and appropriated funds--when it knows the premise for 
        the authorization is flawed?
        5.  Why did the HFO construct an unneeded multi-million dollar 
        decontamination center?
        6.  Did the HFO investigate any management tools that would 
        have allowed the unit to stay open during the planning process?
        7.  Does the HFO/EPA intend to incorporate the IERF study into 
        the planning process?
        8.  Does the HFO intend to lift the emergency closure order?
Summary:
    After reviewing hold harmless laws, federal statutes, and new 
science, I believe that Congress and reasonable people will come to the 
conclusion that CCMA should be open for public use. Unfortuntely, it 
appears the HFO/EPA continue to base the ongoing closure and closure-
oriented planning alternatives on flawed science, illogical decision-
making, and personal agendas that are in conflict with the multiple-use 
mission of the BLM.
    I urge Congress to investigate the decision-making process that 
ranges from the initial process to issue an emergency closure in 2008 
to the current planning effort. I believe that the continued closure of 
CCMA is unwarranted and should be lifted immediately. Also, the 
planning process is seriously flawed since it is based on what has been 
clearly demonstrated to be inaccurate data and false assumptions. The 
planning process should be put on hold until the scientific 
discrepancies between EPA and IERF are resolved.
    What makes this closure so puzzling is that since recreationists 
started using CCMA after WW2, there is not one documented case of 
mesothelioma caused by recreational exposure to NOA at Clear Creek. In 
fact, there is not one documented case of mesothelioma caused by 
recreational exposure to NOA anywhere in California.
    According to BRC member Ed Tobin who served on the Central 
California Resource Advisory Council (1995-2000), he had a number of 
conversations with then BLM State Director Ed Hastey about CCMA as the 
BLM was in the process of completing an EIS to guide the use of the 
area (ROD signed in Jan 1998). During one of these conversations Hastey 
told Tobin that despite EPA concerns about the asbestos risk and Fish 
and Wildlife concerns about a T&E species, he felt that Clear Creek was 
the ideal location for the BLM to promote motorized recreation. He 
backed up these comments by approving the EIS/ROD that allowed 
motorized recreation to continue. BRC agrees with Hastey's vision and 
decision.
    Based on the decisions made by the HFO over the last 4-5 years, I 
believe that HFO has veered away from Director Hastey's vision for 
Clear Creek and will create a defacto-Wilderness area at CCMA unless 
Congress intervenes
Recommendation:
    Congress should consider bipartisan legislation that designates the 
70,000-acre CCMA as a National Recreation Area with OHV recreation and 
other multiple-use recreational activities codified as ``prescribed 
uses.'' Congress could base the route network on the 242 miles of 
routes and 400 acres of open areas identified for motorized use in the 
2005 CCMA Travel Management Plan.
    On behalf of myself, BRC, and other access stakeholders, I thank 
the subcommittee for allowing me to testify on this all too important 
issue. I look forward to working with Congress and the agency to find a 
way to reopen CCMA for OHV recreation and other multiple-use 
activities. At this time, I would be happy to answer any questions.

                                 # # #

Attachments: Exhibits A, B, C, D, and E

Don Amador, 555 Honey Lane, Oakley, CA 94561--Phone: 925.625.6287, 
Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7e7b777b7e75685a796d7534797577">[email&#160;protected]</a>
[NOTE: Attachments have been retained in the Committee's official 
        files.]
                                 ______
                                 
    Mr. Bishop. Thank you very much. Mr. Crimmins.

 STATEMENT OF TOM CRIMMINS, LEAD SPOKESMAN, PROFESSIONALS FOR 
                       MANAGED RECREATION

    Mr. Crimmins. Chairman Bishop, Members of the Committee, my 
name is Thomas Crimmins, and I am retired from the Forest 
Service. I live in Hayden Lake, Idaho. And I would like to 
thank you for the opportunity to appear before you today to 
offer my perspective on H.R. 1581, the Wilderness and Roadless 
Area Release Act of 2011.'
    I support the legislation, and I ask you to do the same.
    The legislation would release all wilderness study areas 
and inventoried roadless areas that have been evaluated, and 
not recommended as suitable for wilderness, by the BLM and the 
Forest Service. It will reduce restrictive management 
practices, and direct that these areas be managed for multiple 
uses, including recreation.
    As it stands, the BLM currently restricts activity on 
nearly seven million acres of WSAs, in spite of the fact that 
the BLM itself has already determined that these areas are not 
suitable for wilderness designation.
    The situation for the Forest Service is even worse, as 
access is restricted on over 36 million acres of IRAs that have 
been deemed unsuitable for ultimate designation as wilderness.
    I worked for the U.S. Forest Service for 32 years, from 
1966 to 1998. And during my career I was involved with the 
Roadless Area Review and Evaluation, the RARE process, on 
several forests in California. Throughout the process, I and 
other managers operated under the expectation that the areas 
ultimately deemed unsuitable for wilderness designation would 
be released.
    This has not been the case. Instead, these areas continue 
to be restricted, ostensibly to protect wilderness 
characteristics of the area that have already been evaluated, 
and found to be not suitable for wilderness. It doesn't make 
sense.
    I would like to provide a little background on my 
experience that will shed some light on how we got here. From 
1973 to 1977 I worked on the Mendocino National Forest, on the 
Forest Planning Team. One of our tasks was to complete an 
evaluation of the Snow Mountain Wilderness Area to determine if 
it should be recommended for wilderness. The area had been 
designated, under the RARE-1 process.
    In 1977 the process, the report had been done, and was 
ready to distribution, when we were told to hold the report 
because we had to go back and determine if additional areas 
should have been included in the analysis. This was the 
beginning of RARE-2.
    In 1977 I transferred to the Cannell Meadow Ranger District 
on the Sequoia National Forest in California, as Resource 
Officer. And I was included on a team that was tasked with 
identifying possible areas that should be analyzed for new 
wilderness consideration.
    The direction came from the Forest Service headquarters 
here in D.C. The intent of the process was to identify any and 
all areas that could potentially be considered for wilderness 
designation, and then, once and for all, make recommendations 
for the areas that should be considered and recommended to 
Congress, and the areas that should be managed for multiple 
use. This would allow the Agency to move forward with its 
mission to manage national forests.
    We were asked to include any areas that did not have 
evidence of past logging, and did not include roads that had 
been constructed with mechanized equipment. As we worked on the 
maps, we would identify potential areas, and where questions 
existed, we would go into the field to identify the specific 
boundaries. During these site visits, we would find areas that 
we knew would not meet the criteria for wilderness, but that 
did meet the criteria for evaluation, and we would include them 
in the identified areas because subsequent analysis and 
evaluation would ultimately resolve those issues.
    Evaluations were completed, and the wilderness 
recommendations were developed. Shortly thereafter, the whole 
process was back in court.
    During each iteration of forest planning, the Agency has 
tried to placate the environmental community by identifying 
more acreage for wilderness designation, and in each case they 
failed to get the remaining areas released back into multiple-
use management. Each attempt has been met with litigation and 
another round of rulemaking or analysis.
    That is why I am here to support passage of H.R. 1581. The 
bill will finally take the Agency back to where it should have 
been at the completion of the RARE-2 analysis process. It will 
allow the Forest Service to responsibly manage these lands that 
did not, and do not, qualify for wilderness designation. It is 
a bill whose time has come.
    And thank you very much for your consideration.
    [The prepared statement of Mr. Crimmins follows:]

             Statement of Thomas Crimmins, Lead Spokesman, 
                  Professionals for Managed Recreation

    My name is Thomas Crimmins, I'm a retired Forest Service Official 
and I live in Hayden Lake, ID. I would like to thank you for the 
opportunity to appear before you today to offer my perspective on H.R. 
1581, the Wilderness and Roadless Area Release Act of 2011.
    In short, I support the legislation and ask you to do the same. The 
legislation would release all Wilderness Study Areas (WSAs) and 
Inventoried Roadless Areas (IRAs) that have been evaluated and not 
recommended as suitable for wilderness by the Bureau of Land Management 
(BLM) or the U.S. Forest Service. It will reduce restrictive management 
practices and direct that these areas be managed for multiple use, 
including recreation.
    As is stands, the BLM currently restricts activity on nearly 7 
million acres of WSAs despite the fact the BLM itself has already 
determined these areas are not suitable for wilderness designation by 
Congress. The situation with the Forest Service is even worse, as 
access is restricted to over 36 million acres of IRAs that have been 
deemed unsuitable for ultimate designation as wilderness.
    I worked for the US Forest Service for 32 years from 1966 to 1998. 
During my career, I was involved with the Roadless Area Review and 
Evaluation (RARE) process on several forests in California. Throughout 
the process, I and other managers operated under the expectation that 
areas ultimately deemed as unsuitable for wilderness designation would 
be released. This has not been the case. Instead access to these areas 
continues to be restricted, ostensibly to protect the wilderness 
characteristics of areas that have been evaluated by the respective 
agency to be unsuitable for designation as wilderness. This doesn't 
make sense.
    I would like to provide a little background on my experiences that 
will shed some light on how we got here.
    From 1973 to 1977, I worked on the Mendocino National Forest on the 
Forest Planning Team. One of our tasks was to complete an evaluation of 
the Snow Mountain area to determine if it should be recommended for 
Wilderness designation. This area had been identified during the RARE I 
process. In 1977, the report had been completed and was ready for 
distribution when we were told to hold the report because we had to go 
back and determine if additional areas should have been included in the 
analysis area. This was the beginning of the RARE II process.
    In 1977, I transferred to the Cannell Meadow Ranger District on the 
Sequoia National Forest. As a Resource Officer, I was included on a 
team that was tasked with identifying possible new areas that should be 
analyzed for Wilderness consideration.
    The direction for the process came from Forest Service headquarters 
here in D.C. The intent of the process was to identify any and all 
areas that could potentially be considered for Wilderness designation 
and then, once and for all, make recommendations for areas that should 
be considered for Wilderness designations and areas that should be 
managed for multiple use. This would allow the agency to move forward 
with its mission to manage the National Forests.
    We were asked to include any area that did not have evidence of 
past logging activities and did not include any roads constructed with 
mechanized equipment. As we worked on the maps we would identify 
potential areas and where questions existed we would go into the field 
to identify the specific boundaries. During these site visits we would 
find areas that we knew would not meet the criteria for Wilderness but 
that did meet the criteria for evaluation and we would include them in 
the identified area because the subsequent evaluation would ultimately 
resolve the issues. The evaluations were completed and Wilderness 
recommendations were developed. Shortly thereafter, the whole process 
was back in court.
    In 1984, Congress was considering the California Wilderness Act. 
During that process, Senator Cranston had supported a specific acreage 
for designation which was more than recommended by the Forest Service 
and Representative Bill Thomas from the Bakersfield area was 
recommending designation of significantly less acreage. The final 
compromise that moved forward was halfway between the two proposals and 
included areas that did not meet Wilderness criteria.
    When the bill was ultimately enacted into law, we went out and 
closed gates on roads and posted Domeland Wilderness boundaries on 
areas that had been used for years for dispersed camping with campers 
and motorhomes because their use had occurred on roads that had never 
been constructed with mechanized equipment but the areas had been 
included in the analysis process. In addition to Wilderness 
designation, the Act identified several areas for further planning or 
special consideration. While not exactly what we had envisioned, the 
final Act seemed to be reasonable, particularly since it included the 
following release language for the remaining areas:
        Section 111(a)(4) areas in the State of California reviewed in 
        such final environmental statement or referenced in subsection 
        (d) and not designated as wilderness or planning areas by this 
        title or remaining in further planning as referenced m [sic] 
        subsection (e) upon enactment of this title shall be managed 
        for multiple use in accordance with land management plans 
        pursuant to section 6 of the Forest and Rangeland Renewable 
        Resources Planning Act of 1974, as amended by the National 
        Forest Management Act of 1976: Provided, That such areas need 
        not be managed for the purpose of protecting their suitability 
        for wilderness designation prior to or during revision of the 
        land management plans;
    We believed that we would now have the ability to move forward with 
management of the remaining areas. But, it was not to be.
    Almost before the ink dried on the President's signature, several 
environmental organizations challenged the Forest Service on the 
management of the released areas and the agency agreed to complete an 
Environmental Impact Statement before any management entries would be 
made into these areas. Thus, the agency returned to the ``analysis 
paralysis'' that exists today. To avoid extra work and conflict 
associated with management of the ``roadless areas'' the agency simply 
tried to manage around them until Forest Planning and the accompanying 
EIS were completed.
    During each iteration of Forest Planning the agency has tried to 
placate the environmental community by identifying more acreage for 
wilderness designation and in each case, they have failed to get the 
remaining areas released back into multiple use management. Each 
attempt has been met with litigation and another round of analysis or 
rulemaking.
    That is why I am here to support passage of H.R. 1581. This bill 
will finally take the agency to where it should have been with the 
completion of the RARE II analysis process. It will allow the Forest 
Service to responsibly manage these lands that did not and do not 
qualify for Wilderness designation. It is a bill whose time has come.
    Thank you again for the opportunity to be here and I would be happy 
to answer any questions you might have.
                                 ______
                                 
    Mr. Bishop. Thank you. Mr. Bacon.

                STATEMENT OF SUTTON BACON, CEO, 
                    NANTAHALA OUTDOOR CENTER

    Mr. Bacon. Mr. Chairman and Members of the Committee, thank 
you for the opportunity to testify today. My name is Sutton 
Bacon; I live in Asheville, North Carolina, and I am the CEO of 
the Nantahala Outdoor Center.
    I wanted to discuss with you three primary topics. First, 
how my company and companies like mine are using human-powered 
outdoor recreational and Federal lands as a catalyst for rural 
economic development.
    Second, how my guests seek and demand access to a full 
spectrum of recreational opportunities on public lands and 
waters.
    And third, the importance of public-land stewardship to our 
local and national outdoor recreation economy.
    My company was founded in 1972. We are located in the 
mountains of western North Carolina, in Swain County. We have 
grown into one of the largest outdoor recreation companies in 
the country. We offer over 120 river-and land-based outdoor 
activities, including whitewater rafting, kayaking, hiking, 
biking, and fishing.
    We receive 500,000 visitors per year, and we take over 
100,000 children from varied backgrounds on outdoor experiences 
each year. On an annual basis, NOC guests paddle enough river 
miles on Federal lands for 39 trips around the world, or two 
trips to the moon and back.
    Our local economy in western North Carolina continues to 
suffer from the loss of traditional manufacturing jobs. Swain 
County suffers from one of the highest unemployment rates in 
the State of North Carolina, at 18 percent, and an equally 
disturbing rate of poverty, also at 18 percent. Twenty percent 
of our residents face food insecurity. In other words, not 
knowing where their next meal would come from.
    Furthermore, approximately 88 percent of Swain County is 
Federally owned, such as the Great Smoky Mountains National 
Park and the Nantahala National Forest.
    Some might say that our current economic situation is 
exacerbated by these large Federal land holdings, which 
diminish our tax base. However, nothing could be further from 
the truth.
    In fact, public lands and waters in our region are a 
pathway to a growing and sustainable prosperity, a type of 
prosperity that cannot be outsourced overseas, and is rooted in 
the value of experiencing these places directly.
    Whereas extraction and manufacturing industries have come 
and gone, human-powered outdoor tourism is becoming the 
backbone of our region's future. A recent study conducted by 
Western Carolina University estimated the local economic impact 
of NOC, an outfitting community on the Nantahala, to be $85 
million per year. In 2010, NOC directly employed 816 people, 
and created 81 new jobs. These jobs, created by our natural 
resources to provide experience, rather than extraction, cannot 
be outsourced. As long as the health and integrity of our 
public lands and waters are maintained, these jobs will never 
go away.
    Our guests travel from all over the world to experience the 
mountains, rivers, and forests in a direct and meaningful way. 
Our guests are actively looking for a wide spectrum of 
opportunities and experiences on public lands. The wealth of 
natural resources in our region allows NOC to provide the full 
spectrum of sustainable recreation opportunities, from relaxed, 
family oriented float trips on the Nantahala, to world-class 
whitewater on the Ocoee, to Georgia and South Carolina's wild 
and scenic Chattooga River.
    Especially in rural areas like western North Carolina, 
America's $730 billion active outdoor recreation economy is 
becoming an increasingly strong and vital part of our economy. 
In North Carolina alone, the recreation economy contributes 
$7.5 billion of economic impact, supports 95,000 jobs, and 
generates $430 million in annual sales tax revenue.
    That economy depends on a balanced approach to our public 
lands. We must maintain the integrity, protection, and 
stewardship of our natural resources, as well as fundamental 
recreation infrastructure, parks, trails, open spaces, both 
remote and close to home.
    Whereas some public lands should be developed in the 
traditional manner, this development should not, and must not, 
occur everywhere. It is our responsibility, with the leadership 
of Congress and this Subcommittee, to foster that spectrum of 
opportunities, services, and experiences on Federal lands and 
water. It is our responsibility to work with Federal land 
managers to provide these opportunities in a sustainable manner 
that ensures sustainable biodiversity, habitat, extractive 
resources, as well as the recreational use which supports 
significant rural recreation economies like ours.
    This responsibility is fraught with challenge. Indeed, we 
know our forests face tremendous threats from sprawl and 
development, pressure from future water, energy, and resource 
extractions, and the demand of multiple-use management and 
competing priorities.
    However, I believe that we can, if we are mindful, find a 
sustainable path forward. Because in these tough times, 
Americans, both children and adults, need the physical, 
emotional, and psychological benefits that outdoor recreation 
provides more than ever.
    During NOC's last 40 years, wherever there has been 
economic uncertainty, our guest numbers have always increased, 
affirming the importance of outdoor recreation during difficult 
times.
    I appreciate the opportunity to speak with you today. Thank 
you.
    [The prepared statement of Mr. Bacon follows:]

          Statement of Sutton Bacon, Chief Executive Officer, 
      Nantahala Outdoor Center, Inc., Bryson City, North Carolina

Introduction
    Mr. Chairman, Ranking Member Grijalva, and members of the 
Committee, thank you for the opportunity to testify before you today. 
My name is Sutton Bacon and I am the Chief Executive Officer of the 
Nantahala Outdoor Center. Established in 1972, the NOC is an employee-
owned outdoor recreation company located at the intersection of the 
Appalachian Trail and the Nantahala River in Swain County, North 
Carolina. Originally a roadside inn, the company has evolved into one 
of the largest outdoor recreation companies in the nation and is one of 
Western North Carolina's largest employers.
    Over 500,000 guests visit NOC annually to embark on a diverse 
collection of over 120 different river and land-based itineraries 
predominantly on public lands, learn to kayak at NOC's world-renowned 
Paddling School, travel abroad to foreign countries with NOC's 
Adventure Travel program, shop at one of our flagship retail stores, or 
enjoy NOC's resort amenities including our three restaurants and multi-
tiered lodging. Each year, NOC guests paddle over one million river 
miles, enough for two voyages to the moon and back.
    NOC has recently been recognized as ``The Nation's Premier Paddling 
School'' by The New York Times, ``Best Place to Learn'' by Outside 
Magazine, and as ``One of the Best Outfitters on Earth'' by National 
Geographic ADVENTURE. In addition, 22 Olympians including two Gold 
Medalists have called NOC home.
    Through our programming, we strive to educate and engage adventure-
seekers through dynamic, world-class instruction and tours on some of 
the world's most beautiful whitewater rivers and landscapes. We are 
committed to sharing our passion for the outdoors and our penchant for 
exploration with our guests. Our employees share a common vision of 
keeping NOC a dynamic, enjoyable, and successful place to work and of 
participating actively, considerately, and sustainably in the 
communities in which we operate. We firmly believe in the triple bottom 
line of people, planet, and profits.
Rural Economic Development
    The economy in our region of Southwestern North Carolina continues 
to suffer from the loss of traditional manufacturing jobs to 
international outsourcing, as textile, garment, and furniture plants 
continue to close. Swain County suffers from one of the highest 
unemployment rates in North Carolina (18.1%) and an equally-disturbing 
rate of poverty (18.3%). A recent study indicated that 19.9% of Swain 
residents faced ``food insecurity,'' in other words, not knowing from 
where their next meal would come. Approximately 88% of Swain County is 
federally-owned, such as the Great Smoky Mountains National Park and 
the Nantahala National Forest. Some might say that our current economic 
situation is exacerbated by these large federal land holdings 
diminishing our tax base. However, nothing could be further from the 
truth. In fact, the public lands and waters in our region are the 
pathway to a growing and sustainable prosperity--a type of prosperity 
that cannot be outsourced overseas and is rooted in the value of 
experiencing these places directly.
    Whereas extraction and manufacturing industries have come and gone, 
our public lands boast a wealth of waterways, trails, and recreation 
areas, making Swain County a popular destination for outdoor 
enthusiasts. In fact, while our local manufacturing base continues to 
contract, the region's outdoor-based tourism economy has seen 
exponential growth, as has interest in tourism re-development, the 
enhancement of existing public-private tourism product, and the 
utilization of tourism-related natural resources in an environmentally-
sensitive manner. Human-powered outdoor tourism is the backbone of our 
future.
    A study was recently conducted by researchers at Western Carolina 
University to provide estimates of the economic impact of the Nantahala 
Outdoor Center and outfitting activity on the Nantahala River on the 
surrounding eight westernmost counties in North Carolina. The direct 
impact of payroll expenditures, other operating expenditures, capital 
expenditures and attendee spending was determined to be $61,918,474. 
The indirect and induced effects of payroll expenditures, other 
operating expenditures, capital expenditures and attendee spending were 
determined to be $11,415,792 and $12,052,223, respectively. As a 
result, whitewater recreation on the Nantahala annually contributes a 
total of $85,386,489 to the local economy. It also represents a total 
of 1,061 jobs. Furthermore, the researchers opined:
        The Nantahala Outdoor Center has a substantial and valuable 
        effect on the surrounding Carolina Smokies region. This study 
        is specifically designed to quantify the tangible impact of the 
        Nantahala Outdoor Center on the region in terms of dollars and 
        cents. However, NOC also provides intangible benefits to the 
        community that are essential to regional community development. 
        For example, the Nantahala Outdoor Center contributes to the 
        cultural life and reputation of the region as a tourism 
        destination. These contributions reinforce the attractiveness 
        of the region as a family-friendly tourism locale.
    In a time filled with such economic uncertainty nationwide, instead 
of hunkering down, NOC has been boldly embarking on a number of new 
initiatives we firmly believe will transform our company, all 
reinforcing our outfitting operations on federal lands. For example, at 
the height of the recession, NOC opened an 18,000 sq. ft. LEED-
certified flagship retail store and adventure center at the entrance to 
the Great Smoky Mountains National Park in Gatlinburg in order to 
promote NOC's human-powered recreational activities in the park. We 
will soon be opening a similar LEED-certified activity concierge 
concept in Asheville for activities in the Pisgah and Nantahala 
National Forests. To support both initiatives, we have launched a host 
of new excursions across multiple outdoor disciplines--including 
paddling, fishing, and hiking--all permitted on federal lands.
    As a result of these and other business expansion initiatives, NOC 
has created 81 new full and part-time jobs during 2009 and 2010 with 
plans to increase employment again in 2011.
    None of this economic and civic revitalization would happen without 
our cherished public lands and waters. Our guests travel from all over 
the world to experience our mountains, rivers, and forests in a direct 
and meaningful way. The jobs created by using our natural resources to 
provide experience rather than extraction cannot be outsourced. As long 
as the health and integrity of our lands and waters are maintained, 
these jobs will never go away.
Youth Outreach in the Context of Job Creation
    As Richard Louv writes in his book, Last Child in the Woods: 
``Developers and environmentalists, corporate CEOs and college 
professors, rock stars and ranchers may agree on little else, but they 
agree on this: no one among us wants to be a member of the last 
generation to pass on to its children the joy of playing outside in 
nature.''
    I was first introduced to the outdoors at summer camp in Western 
North Carolina, growing up paddling on its many rivers and streams as a 
young boy. I can personally attest to the value of being introduced to 
the outdoors as a child, which has led to a lifelong passion for nature 
and genuine passion for curing ``nature deficit disorder'' in today's 
youth. I applaud President Obama, Interior Secretary Salazar, 
Agriculture Secretary Vilsack, and the federal government's efforts to 
promote enhanced opportunities for wilderness and outdoor experiences 
for our country's youth, in part, to help combat ``nature-deficit 
disorder'' and the childhood obesity epidemic that our nation faces. 
However, the success of these initiatives is wholly dependent on 
linking them to job creation and economic development.
    The Nantahala Outdoor Center has long created a sustainable 
business and job growth model around delivering affordable and healthy 
outdoor experiences to youth and underprivileged populations. NOC takes 
over 100,000 children under the age of 18 on outdoor excursions each 
year, which, for comparison, is more than NOLS and Outward Bound 
combined. We supply these children with environmentally-enlightening 
and life-altering outdoor experiences on public lands.
    Providing outfitting services for youth and underserved populations 
requires specific skills and exceptionally high levels of training. For 
example, one of our most popular programs is a collaboration with the 
``Adventure Amputee Camp,'' which invites disabled children from a wide 
geographical area to participate in rafting, kayaking, and other group 
initiatives such as a high ropes course. The guides dedicated to this 
program are our most-trained guides and are considered leaders in 
innovative activities for children with disabilities.
    Programs like this and many others collectively serve as a business 
case that small companies across the country can capitalize on youth 
development initiatives, change lives, and make a difference for our 
two most precious resources--children and the environment--all while 
fostering economic growth and job opportunities
Economy and Public Lands Stewardship Intertwined
    America's outdoor recreation economy is an increasingly strong and 
vital part of our nation's economy, especially in rural areas like 
Western North Carolina that are blessed with healthy public lands. The 
Outdoor Industry Association (OIA), a national outdoor industry trade 
association upon whose board I sit, completed the outdoor industry's 
first study quantifying the contribution of active outdoor recreation 
to the nation's economy. The study indicated that active outdoor 
recreation and our outdoor industry contribute $730 billion annually to 
the United States economy and support nearly 6.5 million jobs across 
the country. North Carolina's share of this economic impact is 
substantial. Active outdoor recreation contributes more than $7.5 
billion to North Carolina's economy, supports 95,000 jobs and generates 
$430 million in annual sales tax revenue.
    The nation's outdoor recreation economy depends primarily on the 
integrity, protection and stewardship of our natural resources, but it 
also depends on fundamental recreational infrastructure, including 
parks, trails and open spaces necessary to enjoy places both remote and 
close to home. As a businessman, I know it would not be possible for 
NOC to exist without the dramatic land conservation efforts that 
designated the Nantahala and Pisgah National Forests, which recently 
celebrated their 100th birthday. Back then, Western North Carolina's 
forests had been devastated by timber operations that left much of the 
land clear-cut and burned. The Forest Service has resuscitated the 
Nantahala and Pisgah National Forests by replanting forests, restoring 
watersheds, and creating campgrounds, trails, and access areas. Today, 
Western North Carolina enjoys 1.1 million acres of national forest 
land, with 178,000 acres identified as roadless. Over 10 million 
visitors visit our region annually because of our natural resources 
with the intent to experience them in their natural settings.
    As you can see, we have had quite an evolution here in Western 
North Carolina. At first, we leaned heavily on our natural resources to 
drive our industrial economy. Previous generations used the resources 
from our forests, rivers, and mountains to build and power homes, 
farms, and factories. We created a tremendous amount of wealth and 
benefit to the nation. Thankfully, we also had the subsequent wisdom 
and vision to nurture these places back to health and maintain a 
balanced approach to our public lands. It took a very long time to get 
simply where we are today, and I acknowledge that it very much is still 
a journey and not a destination. I believe it is our responsibility, 
with the leadership of Congress and this Subcommittee, to maintain this 
balanced approach into the future.
    This responsibility is fraught with challenge. Indeed, the 
Nantahala National Forest faces enormous threats from sprawl and 
development, given the intensity of second-home development in our 
region. Our forests may face pressure from future water, energy, and 
resource extraction to fuel the growth of nearby metropolises like 
Atlanta and Charlotte. Because our public lands are managed for 
multiple uses, I believe that we can, if we are mindful, find a 
sustainable path forward. Whereas some public land should be developed 
in a traditional manner, this development should not and must not occur 
everywhere.
    Through the wealth of public lands and waters in Western North 
Carolina, NOC is able to provide a spectrum of recreational 
opportunities, from world-class extreme whitewater rivers to relaxed, 
family-oriented float trips to wilderness-oriented wild and scenic. In 
all cases, a pristine, natural setting is the main attraction. Swain 
County, and particularly NOC, needs open space, healthy forests, 
mountain ecosystems and free-flowing rivers if it is going to have an 
economy that will continue to grow and thrive.
    The wide diversity of NOC's trip portfolio indicates that indeed 
our guests are actively looking for a wide spectrum of opportunities 
and experiences on public lands, conducted in a variety of settings, 
from river trips to hiking to biking. The goal of this subcommittee 
should be to foster that spectrum of opportunities, services, and 
experiences on federal lands and waters while providing them in a 
sustainable manner that recognizes, nurtures, and supports regional and 
national recreation economies.
    To this end, the outstanding recreational values of some of our 
most prized river and trails, wilderness areas, and wild and scenic 
rivers--the very foundation of the recreation economy described above--
must not only be protected through thoughtful legislation and careful 
management (including, for example, forest planning and travel 
management) but also be supported by the necessary funding to the 
federal land management agencies, such as the Department of Agriculture 
and Department of Interior, so the vitality of the active outdoor 
recreation economy can continue here in North Carolina and across the 
nation.
Conclusion
    In these trying economic times, Americans need more than ever the 
physical, emotional, and psychological benefits that human-powered 
outdoor recreation provides. Another OIA research project showed that 
80% of Americans feel that they are happier, have better family 
relationships and less stress in their lives when they engage in 
outdoor recreation. Anecdotally, during the recession, we have seen 
more hikers pass through NOC on the Appalachian Trail than we have in 
years.
    Our own internal research over the last 40 years indicates whenever 
there is economic uncertainty or a precipitous rise in gas prices, our 
guest numbers increase. This affirms the importance of human-powered 
outdoor recreation during difficult times. We take this charge 
seriously and appreciate our guests' confidence in our ability to 
deliver these authentic outdoor experiences.
    Similarly, I truly appreciate this invitation to speak with you 
today. Thank you for your attention, and I would be pleased to answer 
any questions you may have.
                                 ______
                                 
    Mr. Bishop. Thank you. I thank the three of you for your 
testimony that you have given to us, both oral and written. We 
have a few questions.
    Mr. Garamendi, I will let you go first, if you would like.
    Mr. Bishop. Thank you, Mr. Chairman. Mr. Bacon, thank you 
for your testimony. I have had the pleasure of rafting on one 
or more of those rivers, and it is extraordinary to have those 
facilities available. And your recitation of the economic 
impact of I believe human-powered recreation?
    Mr. Bacon. Correct.
    Mr. Garamendi. So, not including in that economic analysis, 
the motorized, is that correct?
    Mr. Bacon. That is correct.
    Mr. Garamendi. OK. So stacked up against the motorized, we 
have another part of the recreational community, and it needs 
to be addressed.
    Mr. Amador, I will note that the EPA, when did the EPA shut 
down that facility in San Benito County?
    Mr. Amador. That was May 1, 2008, BLM issued an emergency 
closure order and closed it to all users, even the gem and 
mineral collectors that had small businesses there.
    Mr. Garamendi. And the reason was fear over asbestos?
    Mr. Amador. Yes, fear. Even though to date, there hasn't 
been one documented case of death from exposure to naturally 
occurring asbestos in a recreational capacity anywhere in 
California.
    Mr. Garamendi. But we do know that large portions of 
California do have naturally occurring asbestos.
    Mr. Amador. That is correct, 43 counties.
    Mr. Garamendi. Yes. So it was the concern about that that 
shut it down. You now have studies available that indicate that 
it may not be a problem, is that correct?
    Mr. Amador. Yes. California State Parks did commission a 
study, and it is a minute risk.
    Mr. Garamendi. OK. And I notice that was March 22.
    Mr. Amador. Correct.
    Mr. Garamendi. Less than three months ago.
    Mr. Amador. Correct.
    Mr. Garamendi. OK. And what is the status today?
    Mr. Amador. Well, the status is the area is still closed, 
under emergency closure order. And it is my concern that the 
BLM has shown no inclination to incorporate that new science 
into their decision-making process.
    Mr. Garamendi. And what have you done with BLM?
    Mr. Amador. Well, besides submitting comments, there was 
actually an OHV Commission hearing a month or so ago in 
Hollister. And the topic of the study was introduced to BLM. 
And at that time they still showed no inclination to recognize 
it or adopt it into their work.
    Mr. Garamendi. I would just make a comment here briefly on 
that, that I really think the BLM did the right thing. When 
faced with a potential public hazard, they did the right thing 
to shut it down, and then to proceed with caution. And I 
suspect that, given the studies and your own intense interest, 
that they may be considering this, and formal hearings are 
likely to take place to determine the appropriateness of 
reopening.
    With regard to the issue of study areas that Mr. Crimmins, 
you raised, in 1977 the population of California was one half 
what it is today. And the pressures on those areas are 
significantly greater, is that the case?
    Mr. Crimmins. Yes, there are significantly greater 
pressure. But through careful management, it can, that pressure 
can be taken care of and alleviated. The ethical thing is to 
direct people where they need to go.
    Mr. Garamendi. And over that period of time, the budget for 
the U.S. Forest Service, per capita, and the pressures has 
significantly diminished. Is that also the case?
    Mr. Crimmins. That is also true. When I retired, from then 
until now, the budget has gotten significantly worse. We were 
talking about bad budgets and how bad the budgets were when I 
was working. When I was there, it was a priority problem, in my 
opinion--it was not a budget problem. Things have changed.
    Mr. Garamendi. I guess this is the point, to my colleague 
here, Mr. Bishop, and to his caucus. These problems that we 
have heard about today require extensive work on the part of 
the Federal agencies. It is very expensive. These studies have 
to be made in order to protect the resources. And without the 
appropriate funding, these issues cannot be resolved.
    And it seems to me extremely important that we recognize 
the financial strain that we are putting on all of the public 
land management organizations in their effort, and in the 
necessity that they have to sort out these conflicting, 
sometimes conflicting, but not always conflicting, resource-use 
issues.
    And the budget issue is a paramount importance, and one of 
the fundamental underlying problems here. With that, I will 
yield back my five seconds.
    Mr. Bishop. You will get another shot at it, too. Can I ask 
a couple of questions of you, as well? Let me start with you, 
Mr. Crimmins, I appreciate it.
    Can you spend like 10 seconds just to tell me a little bit 
about the Professionals for Managed Recreation? Its members?
    Mr. Crimmins. Professionals for Managed Recreation are 
generally retired Agency personnel that have been involved in a 
variety of recreation management. They support responsible 
motorized recreation, as well as other recreation activities.
    But they have had experience in the field, and they have 
been involved with that.
    Mr. Bishop. We often hear claims that OHV is bad for public 
lands. In your 30 years of experience, what have you learned 
about the values of providing for a managed OHV opportunity on 
forest lands?
    Mr. Crimmins. Managed opportunities can be managed. In 
fact, I have written a book that talks about the guidelines and 
principles for management. And off-highway use can be managed, 
but it has to be managed.
    When we look at most of the problems--and I am being called 
in the field as a consultant a number of times to look at 
things. And usually when I find a problem, it is a management 
problem, to start with.
    Mr. Bishop. You indicated your support for H.R. 1581, based 
on your years as a former Forest Service employee. What do you 
think happens to BLM, for that matter, to your agency and BLM, 
if Congress doesn't pass the legislation?
    Mr. Crimmins. Once again, we are going to be back in that 
paralysis-analysis situation. And my experience has shown that 
the Agency generally tries to manage around those kinds of 
areas. They just don't deal with it, because of too much 
conflict, and they are going to continue that.
    Mr. Bishop. Thank you. And I will come back, hopefully, 
again before I run out. Since I am the last one here I can go 
forever, can't I?
    [Laughter.]
    Mr. Bishop. Mr. Amador, let me ask you something.
    Mr. Amador. Yes, sir.
    Mr. Bishop. Do you feel that the BLM has embarked on a 
campaign to make Hollister Field Office an OHV-free zone?
    Mr. Amador. Yes.
    Mr. Bishop. What other opportunities for OHV are there in 
the area?
    Mr. Amador. None. In fact, within the entire Hollister 
Field Office has wiped off OHV symbols from their web site.
    Mr. Bishop. I understand that the Forest Service in 
California Region V has taken a position which prohibits local 
forests from designating old logging roads for use as OHVs? I 
think there are thousands of miles of dirt roads in rural 
California that have been closed to motorized use.
    Has the region ever given a substantial justification for 
actually doing that?
    Mr. Amador. No.
    Mr. Bishop. Good answer, all right. Let me give you two 
more quick ones if I can here. I saw in your testimony where 
the BLM, in the Samoa Dunes near Eureka, California, in the 
Redlands National Park, simply posts warning signs to caution 
users about life-threatening conditions. Did you ask Hollister 
Field Office why he didn't review other options or review such 
options before closing Clear Creek to all users?
    Mr. Amador. Yes. On several occasions, I asked the field 
manager why he did not review other options that would have 
allowed Clear Creek to stay open. And they simply replied by 
saying I chose not to.
    Mr. Bishop. That is an amazing answer. And I apologize for 
using my Utah accent, calling it crick.
    Mr. Amador. That is OK, I do it too. I am from Humboldt 
County.
    Mr. Bishop. OK, we are cricks.
    Mr. Amador. OK.
    Mr. Bishop. Can I ask you one more? Was the BLM aware, 
well, are you aware of any documented cases of mesothelioma 
caused by recreational exposure to naturally occurring asbestos 
in California? Are there any cases?
    Mr. Amador. Not a single case.
    Mr. Bishop. If there are none, and this is unfair, but give 
me a rough estimate of why do you think they still closed the 
unit?
    Mr. Amador. I believe it was based on a political and 
personal agenda of the Hollister Field Office.
    Mr. Bishop. Thank you. Mr. Crimmins, if I can ask you maybe 
another question. I find it interesting that it was your 
expectation as to the wilderness study area's inventoried 
roadless areas that were deemed not suitable for wilderness 
designation would be released from management for multiple 
purpose use.
    Would you say that other land managers at the time felt the 
same way as you did?
    Mr. Crimmins. Absolutely. In fact, many of our discussions 
in the field, we were in the position of saying well, do we put 
it in or do we put it out, or do we leave it out. It may meet 
it, but we actually put it in, to make sure that we would go 
through the analysis process and then get everything done, and 
release what was left.
    Mr. Bishop. Mr. Bacon, I can't let you go that easily. It 
is like from Central Casting.
    What percentage of North Carolina is Federal land?
    Mr. Bacon. I don't know the answer to that specifically.
    Mr. Bishop. So if I gave you 7 percent, would you believe 
it?
    Mr. Bacon. I would.
    Mr. Bishop. Yes, 2500 acres. And do you compare that to my 
state, which is 67 percent Federal land?
    I am an old school teacher, so I am simply going to come 
back to the premise of what you were giving. Do you have any 
clue on why, if you take the 13 states that have the hardest 
time funding their education system, and you put them against a 
map of public land states, they are the same states? North 
Carolina ain't in that mix. Utah is, Nevada is. Do you have any 
idea of why that works out that way?
    Mr. Bacon. I would suspect because of the tax base.
    Mr. Bishop. That is a big part of it. We have to sit down; 
I won't go into the recapture concept here.
    Let me ask one last question, Mr. Amador, and then I will 
answer my own question. Mr. Amador, have you met with any other 
Members from the other side of the aisle to try and get 
bipartisan legislation that you reference in your testimony, to 
designate Clear Creek as multi-use?
    Mr. Amador. Yes, I and a number of OHV groups have met with 
Congressman Jim Costa personally and his staff, along with 
staff from Senator Dianne Feinstein's office, on several 
occasions, as well as their staff attending public meetings. 
And also other OHV groups have met with Congressman Sam Farr.
    Mr. Bishop. And their response?
    Mr. Amador. Congressman Jim Costa has indicated he would be 
willing to work with this Committee to maybe find a solution.
    Mr. Bishop. Good, we will follow up with him on that.
    Mr. Amador. Thank you.
    Mr. Bishop. I appreciate all three of you for being here. 
Just to answer my last question, when I said what was Gifford 
Pinchot talking about.
    He made it very clear when he was talking about greatest 
good for the greatest number, and actually having a national 
forest system, it wasn't for the scenic beauty, and it wasn't 
for the critters, as he said it. It was for having affordable 
homes. We have changed slightly over the years.
    I appreciate the three of you being here very much. I 
appreciate the colleagues who have been here for it. Thank you 
for your testimony. I ask unanimous consent to put two 
insertions into the record--one from the American Motorcyclists 
Association and one from the State of California Natural 
Resources Agency.
    If there are no other questions, we are adjourned. Thank 
you so much for your time and effort in being here.
    [Whereupon, at 11:38 a.m., the Subcommittee hearing was 
adjourned.]

    [Additional material submitted for the record follows:]

    The documents listed below were submitted for the record 
and have been retained in the Committee's official files.
    <bullet>  Amador, Don, Blue Ribbon Coalition
      <all>  Exhibits A-E showing concerns regarding the closure of 
Clear Creek Management Area
      <all>  Photo showing Clear Creek Management Area
      <all>  Photo showing closure of Clear Creek Management Area
      <all>  Photo showing destruction of facilities at Clear Creek 
Management Area
      <all>  Photo showing Samoa Dunes Management Area
    <bullet>  American Motorcyclist Association, Letter to Subcommittee 
Chairman and Ranking Member
    <bullet>  Jones, Scott, Colorado Off-Highway Vehicle Coalition, 
``Economic Contribution of Off-Highway Vehicle Recreation in Colorado''
    <bullet>  Off-highway Motor Vehicle Recreation Commission, Letter 
to Chairman Hastings, Chairman Bishop, and Ranking Member Grijalva
    <bullet>  Umphress, Karen, Coalition of Recreational Trails Users 
and Minnesota Motorized Trail Coalition
      <all>  Chart highlighting trail designation in Minnesota titled 
``Final Route Designation--58 State Forests''
      <all>  ``Trail Use/Impact Studies'' of recreation on Minnesota 
Trails
      <all>  Rochester Post Bulletin, August 2006, Article highlighting 
professional races at Spring Creek Track
      <all>  University of Minnesota Tourism Center, ``All-Terrain 
Vehicles in Minnesota: Economic impact and consumer profile''

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
